<html>
<title> - COMMITTEE FUNDING FOR THE 114TH CONGRESS (PART TWO)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
          COMMITTEE FUNDING FOR THE 114TH CONGRESS (PART TWO)

=======================================================================



                                HEARING

                               before the

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

               HELD IN WASHINGTON, DC, FEBRUARY 11, 2015

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                  U.S. GOVERNMENT PUBLISHING OFFICE
93-561                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RODNEY DAVIS, Illinois                 Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
RICHARD NUGENT, Florida
                                 ------                                

                           Professional Staff

                       Sean Moran, Staff Director
                 Kyle Anderson, Minority Staff Director


                COMMITTEE FUNDING FOR THE 114TH CONGRESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:00 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Brady, and Lofgren.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin Sayago, 
Communications Director; George Hadijski, Director of Member 
Services; Max Engling, Professional Staff; Cole Felder, 
Counsel; Nick Hawatmeh, Counsel; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Deputy Staff Director/Director of Legislative 
Operations; Mike Harrison, Minority Chief Counsel; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for the continuation of our hearing on committee 
funding for the 114th Congress. A quorum is present.
    One of the most important functions of the Committee on 
House Administration as we begin each new Congress is to set 
funding levels for each of the standing committees of the House 
so that they can effectively plan and accomplish their 
legislative and oversight priorities. This process began 
earlier this year as we gathered information from each 
committee as they prepared for the coming session. Last week, 
the full Committee heard from the chairman and ranking member 
of a number of committees as they explained their requests and 
outlined their plans for their respective committees.
    Today we are going to hear from the remaining House 
committee chairs and ranking members so that we can then 
complete our process of marking up a budget resolution which 
sets funding levels for each committee to be presented for 
consideration by the full House.
    I certainly want to thank each of the chairmen and ranking 
members who have already appeared before our Committee, those 
that we are going to hear from today, and their staffs for the 
outstanding cooperation with which they have worked with our 
committee and our staff in moving this important process 
forward.
    Before we begin, let me first ask for unanimous consent. 
Without objection, I would ask unanimous consent to enter the 
following document into the hearing record, a statement from 
myself as the chairman of this Committee on our own Committee's 
budget request. Without objection, so ordered.
    [The statement of the Chairman follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. I would recognize the ranking member.
    Mr. Brady. Thank you, Madam Chair. I also ask unanimous 
consent to submit for the record a statement in support of the 
funding request for the Committee on House Administration.
    The Chairman. I thank the gentleman.
    Does the gentleman have any opening statement before we 
begin? All right.
    With that, we will start with Natural Resources this 
morning. We certainly want to welcome Chairman Bishop and 
Ranking Member Grijalva for their attendance today.
    Before we even recognize you, let me just tell both of you 
gentlemen that your respective staffs on your committee, were 
very, very helpful with our Committee when we were seeking 
information to put everything together here for your committee 
funding request. So we are very appreciative of that; and we 
appreciate you both attending here today.
    I would ask our official reporter to enter a page break 
since we are starting a new section for the record.
    The Chairman. The Committee on Natural Resources has a 
proud history and jurisdiction over our Nation's energy and 
mineral resources, fisheries and wildlife, affairs related to 
our Native American Indian communities, our water and power 
resources, and our public lands and environmental regulations.
    With that, we appreciate the chairman and ranking member 
coming before us this morning, and we would recognize now 
Chairman Bishop.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Well, thank you. I appreciate that. Thank you 
for your kind words that you said about our staff. They are 
still not getting a raise, but I appreciate those kind words.
    We have a formal statement that I would like to submit for 
the record so that you have it, but let me just hit a couple of 
the highlights in it.
    The Chairman. Without objection.
    Mr. Bishop. Which I do think, in reality, it is probably 
not going to be a whole lot different from some of the other 
committees' chairmen from whom you have heard. But we are 
asking for a 2.5 percent increase for the next 2 years to try 
and compensate in some way for the 13 percent cut or larger 
that we have all had in our committee budgets that had been 
done over the past few years for which no one has really given 
us a whole lot of credit for it. We are also trying to 
institute a restructuring of our subcommittees. We will be 
talking more and more about oversight of agencies that are 
spending $15 billion, and I think we need to do that.
    Also, with the transition in the new chair, we were down. I 
mean, we started this session with one-third of the positions. 
We are in the process of trying to fill those. We also have the 
problem that I think everyone else is having with travel 
budgets that have been taking the brunt of the cuts. We are 
down by about 75 percent, so roughly at the same level we had 
in 2011.
    And I would emphasize the fact that, unlike some of the 
other committees, our jurisdiction is out West. We have got to 
travel a long way to get to where our problems are. I have 
always kept telling you, I want you out of my State of Utah. 
Just go away and we will all be happy. Well, to find out what 
the problems we have in Resources, you have got to travel a 
distance. So that gives us, I think, a unique problem and 
perspective we have if any kind of hearing is going to take 
place.
    And with that, let me just yield back and submit the full 
statement for the record.
    The Chairman. Thank the chairman very much.
    [The statement of Mr. Bishop follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. The chair now recognizes the ranking member, 
Mr. Grijalva.

 STATEMENT OF THE HON. RAUUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Chairman Miller and Ranking Member 
Brady. And I would like to enter the full statement into the 
record if there is no objection.
    The Chairman. Without objection.
    Mr. Grijalva. Thank you.
    And I am pleased to join with Chairman Bishop today to ask 
for your support for the Natural Resources Committee budget 
request. The chairman pointed out the areas in which the 
increase is justified--travel, full allocation of staff to the 
committee function.
    And I think it is important also to note that last session 
we had a total of 712 bills and resolutions referred to the 
committee. We had 159 legislative and oversight hearings, 22 
full committee markup sessions, and passage in the House of 128 
bills, of which 55 became public law. And I mention that 
because the volume of work, I think, merits your consideration. 
The distance of travel for essential hearings out in the West 
merits your consideration.
    And while Chairman Bishop and I have had and will have 
vigorous debates as to the issues that come before the 
committee, the consistent practice of staff allocation is in 
this budget, and I concur with him entirely that 5 percent, 2.5 
each year over this session is merited and justified and, quite 
frankly, quite needed.
    And with that, closing, let me thank you, Chairman Miller, 
Ranking Member Brady, and my colleague Mr. Bishop, and yield 
back.
    The Chairman. Thank you, both gentlemen, for coming.
    [The statement of Mr. Grijalva follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. We are very cognizant of the cuts that not 
only the respective MRAs for the members have taken in the last 
couple of cycles, but certainly in regards to the committees as 
well. As you have articulated here, you are looking for a small 
increase, principally, I suppose, for your staff. I am just 
looking at some of the background that you gave us where you 
have a staff ceiling of 69, and you are averaging about 57 
positions filled.
    So as you look at the possibility of us being able to give 
you a bit of plus-up from level funding here--and we are going 
to be considering that--I keep telling all the chairmen, I will 
tell you the same thing, obviously we have got a finite pie of 
the amount of resources that we have.
    We listened to all the chairmen and rankers last week to a 
number of about half of the committees, and today we are going 
to get the other half in here, and our Committee is trying to 
see what we can do in recognizing how important it is for our 
committees to be able to do the oversight that is under our 
jurisdiction; and how important that is; and how we have really 
hobbled ourselves in the last couple of cycles as we have tried 
to be sensitive and fiscally conservative, et cetera. So we are 
going to take a close look on this.
    Now, I guess, my question would just be, and I think you 
have pretty much said that in your testimony, both of you 
gentlemen, if you were to get the increase, would it be 
exclusively for additional staff? Are you looking as far as any 
kind of technology changes that you might have in your 
infrastructure there on your committee that would make it more 
efficient, or is it just field hearings, staff?
    Mr. Bishop. Well, there are always areas in which you can 
use technology to try and save areas. Unfortunately, I think 
that has been the first area that has already been done. So we 
have implemented those types of changes. As we find other 
elements, we can easily do those. That is not where the big 
money is. The big money, as you all know, still comes from 
salaries and field hearings.
    So specifically, if there was a plus-up, the areas I would 
be looking at very quickly is, we are going to go through the 
NEPA process again. I would like to have a staffer specifically 
dedicated to a review of that law, which hasn't been reviewed 
for decades and becomes a key element.
    We are also doing the oversight. And I would specifically 
like one that would be able to go in there and plus up in that 
area to look at the new regulations that are being given by the 
agencies, because those are the types of things we want to 
cover.
    And then third, I think we probably have on both sides of 
the aisle a disproportionate number of new members and first-
year members who really do need some kind of oversight hearings 
in their particular areas. So I think the third priority would 
be going to some kind of ability to have more field hearings in 
those areas, especially to help the new members along, as well 
as the entire committee.
    So I think, if I were to prioritize and have a plus-up, 
somebody to help us on NEPA, somebody to help us in the 
oversight, and then the field hearings would be the way we 
would prioritize any kind of increases.
    The Chairman. Mr. Grijalva.
    Mr. Grijalva. I concur. I think the formation of the new 
Subcommittee on Oversight for resources demands that we staff 
up for that committee, and the minority needs to do that as 
well. Travel, essential. I concur, we have new members, most of 
them from the West. And as field hearings are asked for, field 
hearings are arranged and planned for, that involves travel. So 
I would say the two primary areas are staffing up and travel.
    The Chairman. Thank you.
    Mr. Brady. Nothing?
    Ms. Lofgren, do you have any questions? None?
    All right, gentlemen. We appreciate your attendance here 
today. We just want to tell you we really are looking at it all 
here and recognizing what you are saying, we are painfully 
aware of what has happened here in the last couple of cycles, 
and we are just going to do our best. So we appreciate your 
request and any information you have given the Committee and we 
will give it every serious consideration. Thank you very much.
    Mr. Bishop. Thank you.
    Mr. Grijalva. Thank you, Madam Chair.
    The Chairman. The Committee now welcomes Chairman Royce and 
Ranking Member Engel of the Committee on Foreign Affairs. I 
would ask the official reporter to enter a page break in the 
hearing record to begin a new section.
    The Chairman. The Foreign Affairs Committee's jurisdiction 
relates to our foreign policy, war powers, treaties, executive 
agreements, and the deployment and use of U.S. Armed Forces, 
the enforcement of U.N. Sanctions, arms control, disarmament 
issues, and the U.S. Agency for International Development and 
foreign assistance.
    We want to welcome both you gentlemen. I would also tell 
you that, before I recognize Chairman Royce, your respective 
staff on your committee were very, very helpful to our 
Committee when we were seeking information to get ourselves 
prepped up here for you today. So we appreciate both the R's 
and the D's, both the staff did a great job.
    Mr. Royce. We overcompensate with that staff. They are 
great, Chairman. But thank you.
    The Chairman. So at this time I would recognize Chairman 
Royce for his comments.

  STATEMENT OF THE HON. EDWARD R. ROYCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Royce. Thank you, Chairman Miller. And I want to thank 
Ranking Member Brady. And I want to thank the Committee members 
here, as well, because when my colleague and friend Eliot Engel 
and I were here 2 years ago circumstances were very different. 
Then we were both new to our positions in leading the committee 
and we were facing a budget cut of 12 percent, which tied us 
with Financial Services and Transportation, if you will recall, 
for the largest cut. And back then, the world was a much more 
stable place. Since then, the wheels have fallen off.
    And so it wasn't necessarily the 12 percent. But if we look 
at Benghazi or we look at Syria or we look at the Russian 
invasion of Ukraine that has occurred or the threats now that 
emanate from Iran, what is going on across the Middle East, 
even North Korea, the rise of the Islamic State, all of that, 
all of our security and prosperity, unfortunately, is 
increasingly at risk because of developments around the world.
    And our committee has this responsibility. Our talented and 
dedicated staff really works quite tirelessly to keep us and 
all our members well informed, ready to react to the never-
ending crisis. We do a good job. Almost every committee member 
wanted to stay on the committee, by the way, unlike previous 
years. We had more people than we could possibly handle.
    And we learned. And I am proud to tell you that we did more 
with less, a whole lot less, $991,400. So we cut the budget by 
a million dollars. We eliminated a subcommittee. We had a 
reduction of three majority subcommittee staff positions and 
one administration staffer. We streamlined our committee's 
organizational structure to compensate for the seven vacant 
staff positions on the majority side alone. And we were unable 
to fill other positions because of budget cuts.
    So what we also did was we moved to paperless hearings. 
Saved a lot of money that way. Paperless markups. We carefully 
reviewed every administrative cost. We cut or eliminated the 
nonessential or duplicative services that we could find. And we 
are working hard. We are working smart.
    But the workload only promises to increase, and we are 
certainly understaffed. Currently we have seven unfilled 
positions on the committee's majority side, positions we cannot 
fill under our current budget. And I understand the challenges 
your committee faces, Madam Chairman, and I am not here asking 
you to fund seven positions. But I am here to ask you to fund 
two of these positions with an increase of only 2 percent of 
our budget for 2015 and 2016.
    A 2 percent increase would amount to $150,000 and would be 
split two-thirds and one-third between the majority and 
minority. The majority share of this $150,000 would allow me to 
fill two vacant positions, ideally on oversight and the 
investigation team where we don't have those staffed.
    With the many current crises facing us and difficult issues 
on the horizon, such as the Authorization for Use of Military 
Force, which we will be taking up in my committee--and by the 
way, that is just about the most consequential thing this 
Congress can do. So our committee is going to continue to be 
challenged.
    In addition to an unexpected AUMF, we will continue to be 
extremely active legislatively with bills to sanction Iran, to 
handle the Iranian challenge there. We have got the reform of 
the Broadcasting Board of Governors, which Eliot Engel and I 
are pushing through the committee. Right now it is totally 
dysfunctional. It has got to be done. We have got to 
reauthorize the State Department and much more.
    So last Congress we had 18 bills become law that we 
actually got, not only through our committee, but through the 
Senate. And in Foreign Affairs, the surprises are relentless, 
as you can imagine. Eliot and I have been in western Ukraine. 
We have been in eastern Ukraine. And, frankly, we have managed 
to do a very good bipartisan job on oversight, including 
pressuring the State Department to get that Inspector General 
in place after 4 years and USAID to be cooperative with the GAO 
and change their policy. But we are overmatched. And on the 
majority side, we have only two full-time oversight and 
investigation staff matched against all these big 
bureaucracies.
    So in conclusion, Foreign Affairs is a very active 
committee. Members increasingly want to be engaged on that 
committee. Legislation on critical issues that affect war and 
peace come through what we handle. And we are lean and, 
frankly, too lean, and we could use and would very much 
appreciate and put to good use a very small increase in our 
budget for a few more oversight and investigation staff. That 
is what we have requested. Thank you.
    The Chairman. Thank the chairman.

    [The statement of Mr. Royce follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
                  

    
    The Chairman. I would recognize now the ranking member, Mr. 
Engel.

   STATEMENT OF THE HON. ELIOT L. ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you, Chairwoman Miller, Ranking Member 
Brady, members of the committee. Thank you very much for 
inviting me to testify today. When I was coming here, I was 
kidding around with some of my staff and I said I would just 
sit here and sing the money song from Cabaret which talks about 
money makes the world go round.
    I want to thank our chairman and my friend Ed Royce for 
working with me in a bipartisan manner. Ed and I have 
established an excellent relationship over the past 2 years, 
and I look forward to working with him as a friend and partner 
for the rest of the 114th Congress.
    I have always believed that foreign policy should be as 
bipartisan as possible, and we have been working together with 
members on both sides of the aisle to address an unprecedented 
number of foreign policy challenges around the world. These 
include the Iranian nuclear program, the fight against ISIS in 
Iraq in Syria, Russian aggression in Ukraine, North Korea's 
development of WMD, and many others.
    I think that we and our staffs, both Ed and I, have gotten 
a lot done for the good of the country and the world. We have 
done more with less. Our staffs work together, I think, more so 
than virtually any other committee in the Congress. That saves 
money as well.
    But now we are essentially cut to the bone. Our ability to 
do good things has been hampered by significant cuts to our 
committee budget. Two years ago, our budget was reduced by 
almost 12 percent, which amounted to $991,000. That was the 
highest percentage cut sustained by any committee. And in the 2 
years before that, we were cut by 5 percent and 6.4 percent. So 
that is a lot of cuts to the Foreign Affairs Committee.
    These cuts have made it more difficult to hire and retain 
experienced committee staff to help us navigate the wide array 
of extraordinarily complex national security challenges that we 
now face. And it has also made it more difficult for the 
committee to conduct effective oversight, as Ed pointed out, of 
the State Department, USAID, and other agencies under our 
jurisdiction.
    So I strongly support the chairman's request for a modest 2 
percent increase in the committee budget. We came up with 2 
percent to be fair. We could have come up with more and 
figuring it would be cut. But we came up with a figure that we 
thought was honest and took into account the fiscal restraints 
that we have. Taken together with last year's 1 percent 
increase, this would begin the process of rebuilding the 
capacity of the committee to effectively meet our 
responsibilities.
    So thank you, again, for inviting me to testify. Thank you 
for the work you are doing. It is very difficult for you to 
listen to everybody complaining and whining, but we thank you 
for it. And I look forward to answering any questions you might 
have.
    The Chairman. Thank you.

    [The statement of Mr. Engel follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. We appreciate both of your attendance and 
your comments. We really don't look at it as complaining and 
whining, and I will tell you why. I have asked my staff to get 
some numbers here as I have been sitting through hearings 
because what we have done to ourselves in the House has not 
been done by the Senate. Now, I am not going to say anything 
too much about the Senate, but I will point this out because I 
think it is an interesting number.
    Our House committees since 2010 have actually taken a 15 
percent reduction, and yet the Senate committees have had flat 
funding during all of that time. So there is a big difference 
of the approach to that. Actually, in the administration, there 
has been a 30 percent increase during this time, which is fine. 
I just point that out. It is the House that has been really 
trying to lead by example, and we have as we have gone through 
some very painful economic times.
    On the other hand, we do have a job to do, which is 
inclusive, particularly, of oversight. The American people are 
looking to these respective committees to do oversight of the 
various agencies, et cetera, and all the other responsibilities 
as both the chairman and the ranking member have just 
articulated for Foreign Affairs; and we are looking at some of 
the information that you gave us. Again, you have a staff 
ceiling of 88, and your average positions filled has been 75. 
So you really have had some significant cuts in staff, travel, 
et cetera.
    I am very appreciative of the comments that you made about 
the paperless hearings. We are all about trying to think about 
utilizing new technologies; but obviously the big portion of 
any budget is always the employees, the staff. So that is 
really where it is.
    I guess I would just ask you this, and perhaps you already 
answered in your testimony, but if we were able to give you an 
increase--and I am not saying that we can, we went all last 
week one day with about half of the committees and today we 
hope to finalize all of the testimony from all the respective 
committees. We have some committees that are looking at flat 
line and others that are asking for small increases, as are you 
for 2 percent.
    For those that are asking for a bit of an increase, we 
would just like to ask you specifically, if we were able to do 
that, would it be staff or field hearings or travel or what 
have you? What really would you do with the 2 percent?
    Mr. Royce. Oh, we have cut the travel and all of that down. 
And as a matter of fact, I would also just mention we moved 
away from the web vendor the committee had used to save $20,000 
by using the House platform. So we have cut everything. So it 
would all go, we go back to that question of oversight, the 
added funding would be for policy personnel specifically. And 
it would be for the challenges for oversight for terrorism and 
the Middle East. And it would be such a great help at this 
time, given what we are dealing with ISIS.
    Eliot and I in the last 2 years have been in the Middle 
East. And having the committee try to handle the oversight in 
this, we have got one person working on two of our key 
priorities, authorizing the whole State Department budget for 
the first time in years. We are authorizing it, we are putting 
it into the Senate, and we are reforming our badly functioning 
international broadcasting, as I mentioned. He also covers 
North Africa, including Egypt, including Libya. So you can 
imagine the situation we are in. And the international 
organizations he covers as well, like the U.N.
    And I shouldn't even get started on the general counsel, 
who covers not only the day-to-day procedural issues involved 
in the legislative process, but also handles international 
human rights, handles religious freedom. Most importantly, the 
authorization for the use of U.S. military force in armed 
conflict, he also handles that.
    And it is not about lightening his workload, which is 16 
hours a day. It is about having another body to make sure we 
are checking all the boxes. We have got to be able to handle 
all of this, and those boxes have to be checked before we move 
the bills or bring the reforms. So we literally must have these 
positions to do our function at this point.
    The Chairman. Thank you.
    Mr. Engel.
    Mr. Engel. Yeah, I would certainly concur with everything 
Ed has said. And I would also say that just this morning the 
White House sent down an AUMF, the authority to go to war with 
ISIS in Iraq. And these are the kinds of things that are 
directly involved with our committee, it is our jurisdiction. 
And in a time of ongoing crisis and increasing crisis, it is 
important that we have the personnel to do the kinds of work we 
need, the thorough work we need.
    And Ed is quite right, to have one person do so many 
different things, it really diminishes the amount of time that 
that person can devote to issues like the AUMF, which are right 
now very much in the forefront.
    The Chairman. Mr. Brady.
    Mr. Brady. Yes. Thank you, Madam Chair.
    You need to know that we, as a committee here, we are 
extremely bipartisan, and we also try to give you what you need 
to be able to function. Throughout the years, there have been 
cuts. I am sure it is tough to find quality personnel, people 
with the expertise that you need at the pay you are paying 
them. They are just almost, like, giving up their time for 
their country.
    So we do understand that there are needs and your needs. I 
like to hear it when you are increasing personnel because that 
is something you could see, something that is happening, rather 
than people come in and talk about travel and whatever, because 
you can always kind of cut back that a little bit. But we will 
fight to give you what you need to make sure that your 
important committee can function.
    Mr. Royce. Thank you, Mr. Brady.
    Mr. Engel. Thank you very much.
    The Chairman. Mr. Harper, do you have any questions? Any 
questions?
    Mr. Harper. No questions.
    The Chairman. All right.
    Gentlemen, we thank you very, very much for your time and 
your assistance in getting us prepared to take a look at 
everything in the aggregate and understand exactly how much 
money we have and what we can do. We are taking your request 
under every serious consideration, and we appreciate your 
attendance here today. We will get back to you.
    Mr. Royce. Thank you, Madam Chairman.
    Mr. Engel. Thank you. Thanks for the job you are doing. We 
appreciate it.
    The Chairman. Thank you very much.
    The Committee now welcomes Chairman Upton and Ranking 
Member Pallone of the Committee on Energy and Commerce. I would 
ask the official reporter to enter a page break into the 
hearing record to begin a new section.
    The Chairman. The Committee on Energy and Commerce has 
jurisdiction over the Nation's telecommunications, consumer 
protection, food and drug safety, public health research, 
environmental quality, energy policy, and interstate and 
foreign commerce. It oversees multiple Cabinet-level 
departments and independent agencies, including the Departments 
of Energy, Health and Human Services, Commerce, and 
Transportation, as well as the Environmental Protection Agency, 
the Federal Trade Commission, the Food and Drug Administration, 
and the Federal Communications Commission.
    So the Committee welcomes both gentlemen to be here today, 
the chairman and the ranking member. Before I recognize 
Chairman Upton from the great State of Michigan, I would just 
comment, as I have told most of the other committee chairs as 
well, both of your staff, on the Republican and Democratic 
side, were very, very helpful to our staff here when we were 
gathering all the information to try to get ourselves sort of 
prepped up here for our hearing today. So we are appreciative 
of all of that. We tried to simplify and streamline the process 
a bit, so we could really get the information we needed without 
having too much volume there.
    But at any rate, we certainly welcome you and we look 
forward to your testimony.
    Chairman Upton.

STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Madam Chair. And my full 
statement, I will just enter into the record.
    The Chairman. Without objection.
    Mr. Upton. And I know, Mr. Harper, I mean, we could save 
time in the future by just saying jurisdiction over the world. 
Just those two words is sufficient. And I know Mr. Harper would 
agree with me, and I know Pallone as well.
    We are delighted to be here. You have a very tough job, 
and, frankly, we are here to help. That is our offer. We 
submitted our full statement on Monday for the record. And with 
the limited time, I want to make two points.
    One, we have saved money over the last 4 years. In fact, 
our budget is a million dollars less than it was just a couple 
of years ago. But our agenda, certainly for this Congress to 
get done, we do need a little bit more. We have made some 
significant savings, not only fewer supplies and subscriptions, 
major reductions in printing and copying, severely restricted 
travel. We didn't have a single field hearing the last 2 years. 
Delays in technology updates, as you know. And most of all, we 
have fewer staff. In fact, we have 122 slots, personnel slots, 
of which only 96 were filled at the end of 2014.
    So with this budget we are asking, we are hoping to 
actually go to 102 slots, still far below, in essence, almost 
25 percent, 20 to 25 percent less than we were just a few years 
ago.
    We have a very big agenda. A number of expiring provisions 
that have to be addressed. The doc fix, SGR. And that is 
something we have been working on in a very strong bipartisan 
way. CHIP, saving children with insurance. Legal challenges to 
the Affordable Care Act. And of course the Supreme Court hears 
those arguments next month. 21st Century Cures, a major 
initiative that Mr. Pallone and Diana DeGette, and myself, 
initiated almost a year and a half ago. But we are looking to 
move this legislation forward. We released our discussion 
document 2 weeks ago, 400 pages long. Lots of hearings, lots of 
roundtables.
    Energy infrastructure, cybersecurity, and consumer 
protection. We need security clearances. We need, frankly, some 
more staff. They have to handle this, and the issue seems to be 
getting worse almost every day with every news report on data 
breaches that are out there. We have got to have the staff 
capable of helping us try to write legislation. Bipartisan. I 
commend Mr. Pallone. We want to work together on this for sure. 
Chemical regulation, TSCA is going to be a big issue for us to 
deal within Mr. Shimkus's subcommittee. Changes in 
communication and technology. Quite a bit more.
    We believe that our hard work to conserve resources and our 
substantial workload ahead makes the case for our request for a 
small increase of $150,000 over our 2014 level, which is a 1.6 
percent increase. I know that Frank and I will do everything 
that we can with additional dollars if you are able to provide 
them to us. But we do believe that what we have offered is a 
restrained and reasonable request to help us achieve this 
important work ahead. And I would note that when we did the 
committee funding resolution on the floor 2 years ago, all of 
us supported the bill.
    I yield to Mr. Pallone.
    The Chairman. I am appreciative of that.
    Mr. Upton. Or yield back.

    [The statement of Mr. Upton follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. The chair recognizes the ranking member, Mr. 
Pallone.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman. Also thank you, Mr. 
Brady.
    I am not going to repeat what Mr. Upton said about the 
various bills and legislation that the committee will be 
dealing with this year. But I do want to say that I have been 
able to work--obviously as you know, I have only been doing 
this for a month or so now--but I have been able to work well 
with Chairman Upton and his staff in general and also in 
preparing this budget submission.
    And just in terms of the jurisdiction, just a little 
statistic that the jurisdiction of the committee covers 
consumer products and industrial sectors accounting for more 
than 45 percent of the gross domestic product and employs more 
than 60 percent of the workforce. So I thought that would be 
interesting for you to know.
    Fred and I have been working together to control and reduce 
our costs whenever possible and proactively as we can. We have 
been looking for ways to operate more efficiently, 
understanding that we have to be mindful of that. And a glance 
at our budget reveals that our committee's priority need for 
both the majority and the minority is really staff. More than 
95 percent of our respective budgets are allocated to higher 
pay and support our staff. And, of course, for me this has been 
a transition because a lot of the Democratic staff actually 
were not there when I arrived. We had an election that lasted 
almost a year, and many of the staff had actually left before I 
even arrived. So we are not only trying to keep the staff we 
have, but also we have had to hire new staff, which makes a 
difference too in terms of what we do.
    The funding increase obviously I support. It is a 1.6 
percent increase, I think, which amounts to about $150,000. 
Basically, it would enable us to afford vital technical support 
and subscriptions that give our staff, information so they can 
analyze current affairs and technology.
    And I would say that, even though we are in the minority 
and we only get one-third of this budget, I feel that that 
allocation split of two-thirds for the majority and one-third 
for the minority is basically equitable. Obviously, it doesn't 
give us in the minority the same opportunities or resources. 
But I think generally the track record shows that, even though 
it is not equal, that it is equitable.
    I am not going to go through all the various things that we 
have to do. I think Fred mentioned them all. I think you 
understand that when you talk about broad areas like health 
care, energy, Internet, telecommunications, these are all 
things that are very much priorities for the Congress. I mean, 
in the first month on the floor alone we had several energy 
bills, pipeline initiatives. We had the ACA. Now we are in the 
middle of discussing net neutrality. So you can see just in 1 
month how much a lot of the issues that the committee deals 
with have been priorities for the Congress as a whole on the 
floor, as well as in committee.
    So I just wanted to say that, again, I support this 
increase. It is a slight increase in the budget. I know you 
probably don't like to see any increases in the budget, but I 
think that it is necessary given what we have to deal with both 
for staff and their support. Thank you.
    The Chairman. Thank you, gentlemen, both of you, very much.
    [The statement of Mr. Pallone follows:]

    [GRAPHIC] [TIFF OMITTED] 

    
    The Chairman. Actually, the amount of increase that you are 
looking for, really less than 2 percent, we are going to try to 
give every consideration to. We will just have to see how we 
do. Of course we had hearings all last week with about half the 
committees, and we hope to finish all of that today, and then 
we are going to take a look at the amount of money that we have 
and see what we can do here.
    I have been pointing this out, and I am just going to, 
because I think it is an interesting number, when you think 
about how the House, has really done everything that we can to 
be sensitive to the economic constraints that we have faced. 
The House committees since 2010 have had a 15 percent 
reduction. Now, our friends in the other chamber over there in 
the Senate have actually had flat funding since 2010. So it is 
a significant thing that the House has done. I would also point 
out that the Executive Branch has actually had a 30 percent 
increase during this time.
    So we, as a separate branch of government, are charged with 
oversight responsibilities, et cetera, and we really have 
hobbled ourselves, I think, in a significant way. So we are 
appreciative of what you are saying. I am just taking some 
notes here. As you say, the staff ceiling is 122 and you had 96 
positions filled. So both on the majority and minority side, 
everybody has done what they needed to do, I think, to try to 
get through here.
    Let me just ask, though, if we were able--and we are not 
making any promises here--but if we were able to give you the 
increase that you are looking for, would that be--you pretty 
much said it in your opening comments--but specifically staff 
or what would be your priority?
    Mr. Upton. Yeah, a couple of things. One, I mean, we have 
some real demands for staff, some talented staff. And we are 
competing with the private sector and others, we know that. But 
I am asked a number of times for field hearings here or there 
on very important issues, whether they be in the South or the 
West, the East, the Midwest, and we have had to say no. Not a 
single field hearing have we had in the last 2 years.
    I can remember when I came here, I was on the Small 
Business Committee and Transportation Committee, I can remember 
taking then chair, of New Jersey, Bob Roe out to my district in 
Grand Haven, Michigan, and talking about roads and 
infrastructure. And it is important for our members to see 
other parts of the country to get a better understanding, 
particularly on energy and health-related issues.
    You know, gosh, as we are looking at 21st Century Cures, 
input from so many different stakeholders, not only disease 
groups, research institutions, like MD Anderson, Cleveland 
Clinic, Mayo Clinic, University of Michigan, for us to 
understand better what we can do to expedite the approval of 
drugs and devices that are going to impact every American 
family and create the jobs that we want here.
    Venture capitalists, we learned, have dropped the U.S. 50 
percent, 50 percent less money from venture capitalists going 
to our health sector because they have decided to go overseas 
because the time of approvals here is just so delayed. So to 
get a better understanding, we have a lot of new members, seven 
on our side, what, five new members on--how many members on 
your----
    Mr. Pallone. Five.
    Mr. Upton. Five new members on the Democratic side. It is 
important that they get up to speed on the very complex issues 
that we have. And so I think we would look at a blend of both 
of those.
    We have indeed tightened our belt the last couple of years. 
Now, as we look at these huge issues before us that we know are 
going to be able to get done, so many obviously too on a 
bipartisan basis, I think that it really would help us if we 
had a few more staff. And we can get you some details, some 
information before the close of business, not only for this 
request, but also maybe if you are able to do a little bit more 
on some of the things that we might be able to do.
    Appreciate your understanding.
    The Chairman. That would be helpful to us, because we are 
going to give, as I say, every serious consideration.
    Mr. Upton. And I know we have Mr. Harper's vote on it. I 
just know that we do.
    The Chairman. He has got a different hat on today. He wears 
both hats, though, very well,
    Mr. Upton. Now vice chairman of one of our subcommittees.
    The Chairman. Mr. Pallone, do you have----
    Mr. Pallone. I would say the same. In other words, I 
mentioned to you before that in transition we have lost a lot 
of our people, frankly, just in the last year. And so as we go 
around and try to find people to replace those who left we are 
realizing disadvantages that are out there because we can't 
offer as much money as we used to. So certainly staff would be 
part of it.
    But I also agree with Fred that it is important to have 
some field hearings. I mean, just an example, not that it is 
maybe not a good example, but yesterday I was at one of the 
American Indian conferences that are held here in D.C. that I 
try to go to because I was the author of the Indian Health Care 
Improvement Act, which was part of the Affordable Care Act. And 
there was a presentation by one of the tribes about their new 
health center, and I realized I had--years ago I used to travel 
and try to go out to Indian country and see some of the Indian 
healthcare service clinics or hospitals--and I realized how 
outdated I have become in the sense that I haven't been to any 
or seen any of them for years. I try to go on my own time. Just 
when I happen to be someplace, I will go visit.
    But Fred is right. I mean, with all the innovations--and we 
are really the innovation committee whether it deals with the 
Internet or health care or whatever--the fact that we never go 
out to see anything is certainly not good.
    The Chairman. Very good.
    Mr. Brady.
    Mr. Brady. No.
    The Chairman. Mr. Harper.
    Mr. Harper. Can you think of something nice I can say to my 
other chairman, Chairman Miller?
    The Chairman. You can tell him what a wonderful State he 
comes from.
    Mr. Harper. We hear that quite often. But I think 
Mississippi would be a great place for a future field hearing, 
Mr. Chairman, because we have the Kemper County facility that 
soon will be up and running. We have nuclear power over near 
the Mississippi River. We have a lot of hydraulic fracturing. 
And the food is much better in Mississippi. So I want to go 
ahead and include that.
    Mr. Upton. The ads say the food is good down there.
    Mr. Harper. There you go. So we have lots of good things 
there, yes.
    Mr. Pallone. I didn't mention, but the new hospital and 
clinic that I was referencing was the Mississippi Choctaw.
    Mr. Harper. Yeah.
    Mr. Pallone. They are going to have a dedication on March 
8, I think, or March 2. I am was going to try--I am going to 
visit Selma with the Faith and Politics Institute and John 
Lewis----
    Mr. Harper. Right.
    Mr. Pallone [continuing]. And I was going to see if I could 
sneak down there.
    Mr. Harper. I saw Chief Anderson yesterday, and we plan to 
be there for that. I hope you will be able to come and join us 
that day.
    Mr. Pallone. Going to try.
    Mr. Harper. There is a 1:06 flight out of Jackson that we 
can make. So you might want to get a hold on that flight to get 
back up here.
    It is remarkable when I listen to both of you discuss areas 
of jurisdiction, it is the world. It is everything. But the 
field hearings, I do think, as you discussed, would be very 
important, if you get additional funding, and that will allow 
that to take place, whether it is going to visit a hospital or 
going to Yucca Mountain or some other nuclear power facility or 
something that is in the field. I think that would be great. 
And looking at the number of hearings that we conduct, it is 
almost impossible to keep up without some more help.
    And so I certainly want to commend you for that and would 
hope that we could move into that direction on some field 
hearings if it is approved.
    Mr. Upton. We have six subcommittees, and John Shimkus is 
the able chair of the Environment and the Economy Subcommittee. 
And he has asked----
    Mr. Harper. Who is the vice chair of that subcommittee?
    Mr. Upton. It is a very important committee.
    Mr. Harper. Okay. I am just checking, Mr. Chairman.
    Mr. Upton. But he has asked if he could take some members 
out just to look at Yucca. It has been quite some time. I went 
out there about 15 years ago when I chaired the Oversight 
Subcommittee. But, again, without an increase I have to say no.
    Mr. Harper. Thank you both for your time and input.
    And I yield back.
    The Chairman. Thank you very much.
    Again, we thank the chairman and the ranking member. You 
have been very informative, made a great presentation, very 
persuasive. Of course, we have a limited amount of funds. So we 
are going to take all of that into consideration when we 
conclude here today and see where we can go with all of this. 
But, again, we are going to give it every serious 
consideration. You have made an excellent presentation. Thank 
you. We will get back to you.
    The Committee now welcomes Chairman Chaffetz and Ranking 
Member Cummings of the Committee on Oversight and Government 
Reform. I would ask the official report to enter a break page 
into the hearing record to begin a new section.
    The Chairman. The Committee on Oversight and Government 
Reform has jurisdiction over the District of Columbia, the 
government procurement process, federal personnel system, the 
Postal Service, and many, many, many other matters. But its 
primary responsibility is oversight of virtually everything 
that the government does, from national security to homeland 
security grants, from Federal workforce policies, to regulatory 
reform, from information technology procurement at individual 
agencies, to governmentwide data security standards.
    So I know they are going to have a very busy, busy session. 
Before I recognize the chairman, I would just mention to you, 
as I have to most of the other committee chairs and ranking 
members as well, both the Republican and Democrat members of 
your staffs were very, very helpful to our staff when we were 
trying to gather up all of our information to be prepared for 
your presentation here today. So we certainly are very 
appreciative of that. I think we have got most of your info 
here.
    I would recognize Chairman Chaffetz.

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you, Chairman, and thanks to Ranking 
Member Brady. We really do appreciate it.
    I am pleased to be here representing the Committee on 
Oversight and Government Reform along with my friend and 
colleague, Ranking Member Elijah Cummings. Our mission is to 
ensure efficiency, effectiveness, and accountability of the 
Federal Government and all of its agencies. And as the primary 
oversight and investigative committee in the House, we provide 
a meaningful and often the only check on the role and the power 
of the executive branch.
    Genuinely good government oversight requires a committee 
commitment to expose mismanagement, waste, fraud, and abuse. We 
identify problems, shine light on them, propose reforms to 
improve efficiency and effectiveness and the transparency of 
the government. We are called the Oversight and Government 
Reform Committee for a reason. We need to work even harder and 
do more on the government reform side of things.
    This Congress we are reorienting the committee's focus to 
function through and with our six subcommittees. Our goal is to 
grow the organization's capacity and ability to perform its 
constitutional oversight and investigative duties beyond what 
we have been able to accomplish in the past. The committee's 
new structure will also allow us to strengthen our 
relationships with the oversight partners that we have at the 
Government Accountability Office and throughout the community 
of 72 inspectors general who at their disposal have more than 
13,000 people.
    We rely heavily on the GAO, with thousands of employees. We 
rely heavily on the inspectors general, again 72 of them, 
employing more than 13,000 people. We gather that information. 
It is very pivotal for us. When they are able to do their work, 
we are able to do our work.
    Mr. Cummings and I will continue the committee's practice 
of being a safe haven for these inspectors general. Billions of 
dollars are wasted each year by the Federal Government, and the 
inspectors general are the taxpayers' first line of defense. We 
want to ensure that they are able to perform their duties 
efficiently and without interference.
    We are committed to redoubling the committee's effort on 
reform. It isn't enough to only put a spotlight on the failures 
of the government. We intend to help close the loop and do so 
as much as possible in a bipartisan way.
    I have asked my members on the committee and the committee 
staff to look at each problem we encounter through the lens of 
authorizing an appropriating committee. To truly do our work, 
we have got to work with the committees of authorization and 
the appropriators, and that triangulation, as I call it, I 
think can lead to better success on both sides of the aisle.
    The committee currently has 45 members, and we have grown 
and expanded. I know on the majority side we have nine freshmen 
members. As has been the case since the 108th Congress, our 
minority receives 33 percent of staff and budget funds to be 
used at the discretion of the ranking member. In our budget 
request we are not asking for any increases. We propose to 
continue to operate at the current levels, both with respect to 
funding and staffing. I am sure, like every committee, we would 
like to have an increase. But the budget that we have put 
forward and the plan that we have has us similar to what we had 
in the past.
    In recent years, the committee has absorbed significant 
budget cuts but has nonetheless played a very meaningful role 
in the largest and most important oversight initiatives facing 
the Congress. It is an honor and privilege for me to serve as 
the chairman.
    And with that, Madam Chair, I would yield back and be happy 
to answer any questions.
    The Chairman. Thank the gentleman.

    [The statement of Mr. Chaffetz follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. The chair now recognizes the ranking member, 
Mr. Cummings.

 STATEMENT OF THE HON. ELIJAH E. CUMMINGS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Thank you very much, Chairman Miller, Ranking 
Member Brady, and members of the committee. I want to thank you 
for this opportunity today.
    The Oversight Committee is beginning a new chapter. With 
Representative Chaffetz as our chairman, we are embarking on 
the 114th Congress with many new positive changes, I am very 
glad to report. For example, the chairman has directed his 
staff to work in a more bipartisan way to conduct our 
committee's investigations. He has adopted policies to solicit 
significant input from the minority. And he has listened to our 
concerns and comments. In addition, he now has a standing 
policy for staff to work with our staff on drafting committee 
letters, allowing us to review them before they go out. I 
cannot begin to tell you how much this is a breath of fresh 
air.
    On our side, we have been able to respond to these 
improvements by supporting the chairman's investigations much 
more strongly because we have input and we are being respected. 
Although it is only February, we have already agreed to sign 
dozens of request letters on a truly bipartisan basis. We have 
announced committee hearings jointly, I have signed numerous 
witness invitations with the chairman, and we have held 
bipartisan meetings with the White House and federal agencies.
    In turn, Chairman Chaffetz has been open to ideas that we 
raise. Just this week, for example, we sent a joint letter from 
me and the chairman, along with the chairman and ranking member 
of the National Security Subcommittee, asking for a legal 
justification behind a recent decision by the Department of 
Defense to start classifying information about spending in 
Afghanistan that previously had not been classified. We brought 
this request to the chairman, and he agreed to join because we 
are starting to build greater trust between our two sides. And 
this is the way, I believe, that Congress should operate and 
the American people want us to operate.
    Going forward, we have also agreed to adopt a document 
protocol, which is something the Parliamentarian strongly 
recommends, and our staffs are working on that now. We are also 
marking up our oversight plan at a business meeting later 
today, and we are working to ensure that it will reflect the 
priorities of not just Republicans or Democrats, but of the 
American people. The American people want to know that we have 
got their back.
    And I have said to the chairman, and I am sure he agrees, 
is that not only must we investigate, not only must we reform, 
not only must we make sure that government works effectively 
and efficiently, but at the end of every day we should have 
done something to improve the lives of the people that sent us 
here.
    Finally, the chairman and I also agree very strongly on 
preserving our committee's limited budget, which has been cut 
repeatedly. Over the past 4 years, our budget has been reduced 
by more than $2 million, a cut of more than 20 percent. And I 
agree with the chairman, I just want to hold the line. I don't 
want our budget reduced from what it has been. I know my staff 
very much appreciated the 1 percent increase we received last 
year, but the fact of the matter is that we simply cannot 
sustain these kinds of cuts without affecting our core mission 
of rooting out waste, fraud, and abuse.
    So today I urge you to recognize the unique nature of the 
Oversight Committee, which saves the American taxpayers far 
more than it spends. I ask that you help us fulfill our 
critical mission and role, and fund us at the levels that will 
allow us to hire the necessary staff, keep talented and 
experienced individuals, and continue rooting out waste, fraud, 
and abuse.
    And with that I yield back.
    The Chairman. Thank you very much, gentlemen.
    Let me just say at the outset, as you mentioned some of the 
various statistics you were looking at with your staff ceiling 
of 118 and you are averaging 98 positions filled, we are very 
aware of the kinds of cuts that all the committees, quite 
frankly, have taken over the last couple of cycles, yours as 
well. I just give you this to give you a flavor of what has 
happened really here in the House where we really have taken to 
heart trying to be fiscally conservative and cutting our 
respective Members' budgets, as well as the House committees as 
well. We actually, since 2010, have taken a 15 percent 
reduction, while the Senate--God love them on the other side 
here--has had flat funding during all of that time while we 
have taken 15 percent. We are a separate chamber with oversight 
responsibilities, and yet we have really hobbled ourselves. 
Also the Executive Branch has had a 30 percent increase during 
much of that time.
    So I just point those out because what you are saying and 
what we have heard from the other chairmen and ranking members 
is absolutely true.
    Now, I am appreciative, I know we all are, of the fact that 
you have asked for level funding because we have such a finite 
amount of funds. This Committee last week had a full day of 
listening to about half the committee chairs and ranking 
members last week, and we hope to finalize all of that today, 
and then we are going to really sit down and see what we need 
to do, what we think we can do.
    Let me ask just you a question. If we were able to give you 
a little bit of extra cash--and we are not promising that--but 
if we were able to do that--I would ask the chairman first--
would you really look at staff? Are you thinking about field 
hearings? Or what specifically, if we could give you, I am not 
going to throw a number out because I don't know what that 
would be--but if we were able to plus you up a bit, what would 
you look at?
    Mr. Chaffetz. Thank you, Madam Chair.
    Personnel is the number one issue. We have such a broad 
swatch of responsibility. Keep in mind, between the GAO and the 
IG community, they issue thousands of reports. We are also, 
with the administration in the first 4 years, it is actually a 
number that was lower than some previous administrations, but 
there were more than 13,000 rules that were introduced. 
Somebody needs to look at that, and we need professional staff 
in order to look at that.
    I do think we also need more investigators that can get out 
into the fields. So part of that would probably go to some 
travel. Everything doesn't happen here in Washington, D.C., and 
it does take personnel, in a bipartisan way, for that staff to 
go out and do and conduct some of those investigations and 
speak with people.
    Third on that list would probably be some field hearings, 
which I think are very warranted. For instance, we have an 
Interior Subcommittee. We are dealing with oil, gas, EPA 
issues. A lot of that happens out West, and it is very 
difficult to have those hearings and really see, feel, touch, 
understand, and hear from locals when you are dealing with 
interior issues.
    So those are just a couple of examples off the top of our 
head. But personnel would be right at the top of the list to 
fill those investigative needs and to truly read the reports. 
When somebody goes and spends a year of their life 
investigating something, we think you have a duty and a 
responsibility to digest that and make the most of it, because 
those recommendations in large part are just going up on a 
shelf, they are not being heeded.
    Mr. Cummings. When I took responsibility of the committee a 
few years ago, I came in and we were cut. We were cut at that 
time, and literally we reduced our people's salaries, some of 
them by 10 percent. And these are hard-working people, many of 
them with children, having a very difficult time. So I am 
always looking at ways to make sure that people are properly 
compensated.
    But in addition to all the things that the chairman just 
said, I agree with all of that, and staff is just to me number 
one. We have a lot of investigations going on. We need quality 
people. We need to be able to keep quality people. And I will 
tell you, if there is anybody in this Congress that fights 
harder for employees of the government, it is me, because I see 
what they go through and I see the flak that they take over and 
over again, particularly in my committee.
    So, again, I am looking quality people, people who are 
dedicated, with a passion, and who want to be about the 
business of doing the kind of things that we are trying to 
achieve here.
    The Chairman. Thank you very much.
    Mr. Brady.
    Mr. Brady. Yes, thank you, Madam Chair.
    It is a big difference from 2 years ago when you came in 
front of us. And it is refreshing. But I am a little confused, 
which is not hard to do. But if you give us a statement on why 
and who and where and how you would spend that money if we got 
money for you, why didn't you ask for more?
    Mr. Chaffetz. Well, we understood that these are tough, 
difficult times. We put forward a budget we thought would be 
reasonable. I am brand new to this chairmanship. But there is 
certainly a need, but this is the one that we put forward.
    Mr. Cummings. Let me say this. I think one of the things 
that I talk about a lot in my district is low expectations and 
how so often we predict that something is not going to happen. 
And if you don't think it is going to happen, it is not going 
to happen, if you don't try.
    So I think, to be frank with you, I came in here saying to 
myself we have got to hold the line with what we have got 
because I have seen the trend, and the trend is downward. So I 
think in part for me it was that I didn't want to come in here 
and insult the committee, I wanted to make sure that we at 
least got what we have, because I didn't want to go down. That 
is a very straightforward answer.
    Mr. Brady. All due respect, all the other committees have 
been insulting us then, because they are all asking for some 
more money.
    Mr. Cummings. Well, we will take it, I can tell you that.
    Mr. Brady. Well, when we present this and try to fight for 
people that are asking for money, we have to fight for you, and 
it seems to me that you are not fighting for yourself. I don't 
know if you are going to go to school on me or not, but you 
should put some requests in for some more money because then 
you come into the category of people that are asking for more 
money and some people that are not. The people that are not are 
just going to be kind of like dismissed.
    And I do believe, and I do know what you do, and I am 
really pleased to have this discussion with you and have your 
presentation, altogether different, you weren't here, than it 
was 2 years ago. And we are really glad to hear that you are 
working together because it is an important function that you 
do. We would really like to see you get the wherewithal to make 
sure you can do your job. That was just a little bit of 
confusion on my part.
    Thank you, Madam Chair.
    The Chairman. I thank my ranking member.
    I would just point out that it has been about half and 
half. About half the committees have asked for level funding, 
the other half have asked for a bit of an increase, some a 
little more than others.
    But one thing, and I know the ranking member and I share 
this, just because you didn't ask for an increase and really 
tried to hold level funding, we are not going to hold that 
against you. Okay? We will take that into consideration as 
well.
    Obviously as a new chair as well, just trying to get your 
arms around, of course you have been on the committee a long 
time, but really now really looking at staff and all these 
kinds of things. So as I say, we are very aware. I read you the 
statistics here, just because I think it is interesting, to see 
how much the House has taken our own hit, right? We have hit 
ourselves on all of this, and yet we really have hobbled 
ourselves and our ability to conduct oversight, which is our 
mission also.
    So with that, I don't know if there is any----
    Mr. Brady. Madam Chairman.
    The Chairman. Yes.
    Mr. Brady. Just to add to that, just to agree with her, 
that is why we wanted to get you on the record to say that if 
you did get more money what you would do with it.
    Mr. Chaffetz. Yes.
    Mr. Cummings. We want more money.
    The Chairman. All right. Thank you very much, gentlemen. We 
will get back to you. We will give it every consideration. 
Thank you very much.
    Mr. Cummings. Thank you very much.
    The Chairman. I now recess the hearing, and the Committee 
will reconvene subject to the call of the chair, after votes I 
think. Thank you.
    [Recess.]
    The Chairman. The Committee will be called back to order. 
The Committee now welcomes Chairman Thornberry and Ranking 
Member Smith of the Committee on Armed Services. I would ask 
the official reporter to enter a page break into the hearing 
record to begin a new section.
    The Chairman. The Committee on Armed Services has 
jurisdiction over our defense policy generally, our ongoing 
military operations, the organization and reform of the 
Department of Defense and the Department of Energy, our 
counterdrug programs, our acquisition and industrial base 
policies, and the Department of Energy's nonproliferation 
programs, and detainee affairs and policies.
    We want to thank both the chairman and the ranking member 
for being here. Before I do recognize you, let us just say that 
all of your staff was very, very helpful with our staff when we 
were trying to gather information for us to be prepared to 
discuss your request here today. So we certainly are very 
appreciative of that. I think we have all the information that 
you gave us. At this time the chair would recognize Chairman 
Thornberry for his presentation.

   STATEMENT OF THE HON. MAC THORNBERRY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, Madam Chair. And thank you and 
the distinguished ranking member for having Mr. Smith and I.
    I think both of us are fully aware of the budget situation 
facing the Federal Government, and thus Congress. And I 
certainly endorse the push to make better use of our taxpayer 
dollars.
    On our committee, as Mr. Brady well knows, we are also 
aware of the security situation facing our country, our 
military, and thus our committee. There has been testimony in 
front of Congress that we have not faced such a wide array of 
serious threats to our national security since at least the end 
of World War II, and some people believe ever.
    And so those things range from newly resurgent nuclear 
states, to the terrorism we all see on the news, to even things 
like Ebola, where it was the military that was sent to try to 
contain this naturally occurring disease, but at the cost of 
some millions of dollars.
    And so the Constitution puts on the Congress, and thus on 
our committee, a significant responsibility for helping 
provide, to build the Armed Forces that are needed to meet the 
security needs of the country. And I guess one key point I 
would like to leave you with is, with so many diverse threats 
facing our country, that puts a lot of work on our committee.
    For me, I believe it is essential that reform be a major 
element of what our committee does. And by that I mean 
personnel reform. We just received a report of a commission to 
look at the total scope of pay and benefits which go to our 
military folks, and they have a number of recommendations for 
reform. I mean acquisition reform, how the military buys goods 
and services, which not only is more expensive and takes longer 
than it should, but does not give us the sort of agility we 
need to deal with adversaries that move very quickly.
    Reform also means organizational reform and reducing 
overhead. These are major areas that if Congress doesn't push, 
it is not going to happen. So at least as far as the majority 
staff, I want to have five people devoted exclusively to 
reform, and that is what it is going to take in order for us to 
do the work to prod the Department of Defense to make these 
changes. Again, unlike other departments in the government, if 
Congress doesn't do it, reform is not going to happen with the 
Department of Defense. History has shown that. Goldwater-
Nichols is the most prominent recent example, but the whole 
history, from the National Security Act of 1947, et cetera, is 
that it was Congress that had to make the changes. And to make 
those changes, it is going to take more resources.
    So essentially where we are is that we have got to choose, 
with the current rate of funding, we have got to choose between 
doing the reform or doing the oversight and our regular work. 
Just a reminder about what our regular work is, it is oversight 
of half the discretionary budget of the Federal Government. It 
means that for the last 53 years we have passed and the 
President has signed into law a National Defense Authorization 
Act. Last year, that NDAA had 800 provisions. It authorized 
over $600 billion. It had 270 amendments offered in the 
committee markup and 325 amendments were offered on the floor.
    That is our regular business. And without more resources, 
we have got to choose basically between our regular business 
and doing the reform effort.
    There are a number of specific issues that we can talk 
about needs, including, by the way, classified phones. I have 
never yet gotten a classified call in our committee spaces when 
it has gone through with less than four attempts. Now, the 
people at the Pentagon get tired of trying to call you if you 
keep hanging up on them four, five times in a row. Just as an 
example about equipment deferrals that affect our operations 
that we have to pay attention to.
    One other fun fact. According to Google Analytics, if you 
look at our House Armed Services Committee Web site, the top 
three locations where people come and visit our Web site are 
Tehran, Beijing, and Moscow. Now, that is just the environment 
in which we have to operate, but it also shows the importance, 
I think, of the work we do.
    Meanwhile, we have the largest committee in Congress. We 
are the only committee in Congress that has more members than 
staff--obviously, we have got the lowest ratio of staff to 
members--charged with overseeing half the discretionary budget 
at a time of unprecedented change.
    So my request is that we have an increase in our budget so 
that we can do our regular job in a time of unprecedented 
change, as well as the reforms that absolutely have to happen, 
and that comes with added people.
    The Chairman. Thank you very much.
    [The statement of Mr. Thornberry follows:]

    [GRAPHIC] [TIFF OMITTED] 


    The Chairman. The chair recognizes the ranking member, Mr. 
Smith.

STATEMENT OF THE HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Smith of Washington. Thank you, Madam Chair. I can't 
say it much better than the chairman said it, so I will try to 
be brief. But we do a lot of work on the committee, beginning 
with the fact that we are the one committee that every year 
passes a bill. And Mac outlined it is no small piece of 
legislation. It goes through regular order, something that is 
unrecognizable in, I think, just about every other committee. 
But we go through the committee process of all the amendments, 
a 12-, 15-hour markup, and then on the floor and forward. And 
it is the staff that is doing a lot of that work, figuring out 
what those amendments are, answering questions of members. It 
is a lot of work to get that done.
    And then, yes, we have the reform agenda. And then we do 
exercise an oversight function. I realize that the Government 
and Oversight Committee has an Armed Services or national 
security branch, but we in the last few years--I remember when 
I first came to Congress and was first a member of the 
committee back in the late 1990s this wasn't much of an issue. 
But now Libya, ISIL, Afghanistan, Pakistan, Iran negotiations, 
all this stuff comes up, and we have to deal with it in 
addition to that piece of legislation that we work on every 
year that is so important. And the size of the committee the 
chairman mentioned, and the fact that we are allotted 71 staff 
members at the moment, we can only afford 59.
    So that is just a long way of saying we need more money, I 
think, to adequately to do the job that we are being asked to 
do, and to give the staff members the support that they need, 
particularly in the government reform agenda that the chairman 
mentioned, we need to dedicate staff to that, and that is 
incredibly important right now in this budget environment.
    So I will keep it to that and just otherwise concur in the 
statements of my chairman. I yield back.
    The Chairman. Thank you, both of you, very much.
    [The statement of Mr. Smith of Washington follows:]

    [GRAPHIC] [TIFF OMITTED] 
    The Chairman. In particular, when you are mentioning the 
staff, I was looking down at our notes that your staff had 
given us, that you have got a staff ceiling of 71, you have got 
an average of 63 positions filled.
    I would say this. You have asked for one of the highest 
increases. Our Committee last week, we went through about half 
the committees, and the chairs and ranking members of the 
committees last week, and we are hopefully going to finish 
everything here today so that we have an opportunity to take a 
look at our finite pie of dollars that we have; and see where 
we think we can go, and what we can do.
    Just for full transparency, we have got about half of the 
committees asking for level funding and others that are asking 
for a bit of an increase. Yours is a little bit higher than 
some. But, as you say, you have articulated very well what your 
needs are and why you are requesting what you have.
    I would just say this, just because I think it is 
interesting, because the House really, I think, has tried to be 
very fiscally conservative, not only with our own individual 
MRAs, but certainly with the committee structure as well. 
Everybody has not done the same thing here on the Hill. I will 
just point this out, since the 110th Congress the House had a 
15 percent reduction in committees, 15 percent. The Senate, God 
love them, has actually had a 4 percent increase during that 
time. So not only did they not take any reduction, they 
actually have had a bit of an increase.
    It makes a difference. We are equal chambers of Congress, 
and we do have our responsibilities for oversight, as both of 
you gentlemen have articulated very well. I will just make one 
other comment, because the Executive Branch has actually had a 
30 percent increase since 2008.
    So we on this Committee are giving every serious 
consideration to the proposal that you have made before us. I 
am not sure what we are going to be able to do for you, but we 
certainly are, as I said, giving it every serious 
consideration. You already have, I think, answered my question, 
but just specifically, if we were able to give you what you 
were looking at, or something in that ballpark, it is 
principally just staff that you are really looking to staff up 
for the oversight? I think the chairman mentioned you were 
looking at five positions in particular?
    Mr. Thornberry. Yes, ma'am. And I might just mention that 
even if we got our full request, we would not be back to where 
we were in 2010.
    But just to give you a little feel for it, on the majority 
side I have got one staff member oversees all aviation 
programs. Now, that is everything from the Long Range Bomber to 
the JSF F-35, the biggest acquisition program in history, to 
the A-10. What am I trying to say? The refuelers, the UAVs. 
That is one person. I have got one other person who does all 
Navy programs other than aviation. I just want you to get a 
sense for how thinly we are stretched.
    I have got one lawyer. And we are going to have a major 
responsibility to deal with this AUMF, even though it is not 
primarily in our jurisdiction, but yet how it affects the 
military, et cetera, that is in our job.
    So essentially I have got a choice, and under the current 
resources it is reform or the oversight. And there is no 
choice. We have to do reform or it is not going to get done. So 
all of these different programs are just not going to have the 
oversight. Now, maybe the Pentagon would like that, but I don't 
think we are doing the country very well.
    The Chairman. I am appreciative of that, particularly when 
you were mentioning about the acquisition reform. Sometimes you 
have to spend a dime to make a buck, really, and have the 
ability to make those kinds of reforms to the process. 
Goodness, we are talking about billions and billions of 
dollars.
    So, Mr. Smith, you have any comment at all?
    Mr. Smith of Washington. I have nothing to add to that.
    The Chairman. Okay. Very good.
    My ranking member, Mr. Brady.
    Mr. Brady. Yes. Thank you, Madam Chairman. Madam Chairman, 
as you know, I am on this committee and I am on the Armed 
Services Committee, and I am probably one of the most fortunate 
Members of Congress because I am on two committees that are 
totally, totally impartial. I mean, they work together 
extremely well, the members do. Not sure I know all the members 
and who they are. I know most of the staff members, and they 
never treat me--I don't know, other than where I see them 
sitting right now, I don't know who they work for. I mean, they 
work for us. Whether it be the Republican side or the 
Democratic side, they are always ready and able to do the best 
that they can to answer any questions that we have. It is a 
completely bipartisan committee with members and with staff.
    And I would like to echo what the chairman and the ranking 
member just said. It is hard to keep these kind of people, the 
dedicated people that we do have, because I think every one of 
them that I know of, they could probably do much, much better 
on the outside. But because they are dedicated and they are 
committed to what we do on that committee which keeps them 
there. And not only are we cutting their pay or keeping them 
the same--hopefully not cutting--it is hard to attract anybody, 
any new people to come to work because we are not being able to 
adequately pay them and we have given them a whole lot of work 
to do. But they are dedicated. And I couldn't think of any 
other committee--naturally, I am biased--that we can hopefully 
look at and try to come up with whatever we can come up with to 
be able to adequately let you do your job on that committee, a 
real important committee.
    So I thank you for what you do, and it is an honor and 
pleasure to be serving with you on that committee also.
    Thank you, Madam Chair.
    The Chairman. Thank the gentleman.
    The gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you, Chairman.
    Thank you, Chairman Thornberry and Ranking Member Smith. 
You mentioned the communications issues that you are having. 
And just for my reference, is the House telecom office the 
office that sets up the classified lines or does that go 
through another entity?
    Mr. Thornberry. It is the House Security Office, really, 
that should be responsible for secure telephones. And we don't 
have a lot. We have limited SCIF, sensitive compartmented 
information facility space, but our phones that we use for 
classified calls are so old and so out of synch with what the 
Pentagon has that they just don't work, as I say, four out of 
five times. And it is never the first four when it does work. 
And I can give you other examples.
    As the gentleman knows, I am new to this job. And so when I 
started looking at the budget and I am walking around all the 
offices looking at the equipment and so forth, frankly, I was 
shocked. I don't know how the former chairman and Mr. Smith and 
the staff directors have done what they have done. Our staff 
has not had a COLA or a merit increase in 5 years. And then we 
have these equipment issues that just adds to the frustration 
of their job. I am amazed, really, they have held it together.
    Mr. Smith of Washington. Just in talking about the COLA 
issue, the one other issue that we have not brought up yet is 
for a couple of years, I think previous year, our staff members 
2 years ago had to take furlough days, had to take pay cuts. I 
don't think any other committee actually did that because they 
had room in their budget. We didn't have any room in our 
budget.
    So not only has our staff not received any COLAs or any pay 
increases, but a number of those staff actually had to take 
furlough days, up to, I think, it was like 15 or 20 days out of 
the year. So they took a pay cut 2 years ago as a result of 
that. That is just the pressure we are under given the amount 
of money we have and the amount of work that there is to be 
done.
    Mr. Davis. I am sympathetic. I am new to this job, too, 
here, but I am not new to the House operations, being a staffer 
for 16 years. And that is why I am asking the questions about 
who would be responsible. Because that falls back on our 
committee to make sure that they are responsive to you if they 
are under our jurisdiction.
    And I am sympathetic to the communications issues. And the 
reason why I am asking is I see that you are going to be able 
to take a lot of this increase--proposed increase, if you were 
to get it--and bring on new staff, make sure the existing staff 
you have are up to the standards that we know need to exist on 
your committee.
    My fear is that under your telecommunications, under your 
communications budget request that might not be enough to 
actually upgrade your telecom equipment. And I want to know if 
there is anybody that has estimated so that we can make sure 
that you have the ability to do that, because, frankly, I am 
offended the Pentagon has anything better than us, especially a 
telephone.
    Mr. Thornberry. Just to clarify, we are not talking about 
replacing the whole phone system. The Intelligence Committee is 
a different thing. They have a lot more classified phones down 
in their SCIF spaces in the basement of the Visitors Center. We 
only have a handful of these classified phones inside our 
conference rooms that are SCIFfed. I can't tell you off the top 
of my head what that cost would be. It is not huge. But I guess 
I cite it because, number one, it uses an incredible amount of 
time while you are trying to get a call through. And secondly, 
it is an example of what has had to happen over the last few 
years just because things have not been able to be upgraded.
    Mr. Davis. I am going to yield back the balance of my time 
real quick, I know we are going to votes, but could you have 
your staff get back to me on the procurement process for this? 
I am just trying to make sure I understand the process.
    Mr. Thornberry. I think it is the Security Office that is 
responsible for it, but I will get back to you once I get that.
    Mr. Davis. Thank you. I yield back.
    The Chairman. The gentleman from Florida, Mr. Nugent.
    Mr. Nugent. Thank you, Madam Chair.
    Welcome again. Good to see you again. I saw you just a 
little bit ago. And I echo the same comments Mr. Brady makes in 
regards to this committee. The bipartisanship actually has been 
really refreshing on Armed Services.
    And just to give everybody an idea, the breadth of what 
Armed Services does, it is all the Armed Services of the United 
States, but it is about security of this Nation. And we have to 
make decisions, budgetary decisions, we will be doing the NDAA. 
There are a lot of things that we have to do. But one of them, 
though, is so staff-driven. The information that we get, and 
you are right, I don't know the Republican staff versus the 
Democratic staff because everybody is helpful to all the 
members on the committee.
    And I guess yesterday first ever, I hate to call it a 
retreat because you don't want to ever talk about retreat, but 
yesterday we had a retreat, for the first time that I am aware 
of, where we actually talked about issues that are going to be 
facing us and how can we deal with those in the future. And we 
had some pretty sharp folks come in a classified setting and an 
unclassified setting to tell us where we need to go. And it 
really convinced, I think, a lot of Members maybe who were 
unsure of how we should move forward and what the cost is to 
actually do what we need to do to keep America safe. And the 
threats are so diverse.
    So this committee, everybody has bitten the bullet to say 
in regards to reducing staff and reducing staff costs. But at 
the end of the day I am fearful that everyone on the Armed 
Services Committee, whether it is working conditions, whether 
it is a telephone that works or doesn't work, but at the end of 
the day it is about how do I support my family. And these guys 
and gals could go out into the real world and make probably a 
whole lot more money. But I think what keeps them here is their 
loyalty to this country and their loyalty to actually coming up 
with a product that makes America safer, not weaker.
    And I think this is a request that really should be taken 
into account. Of all the things that we do--and everything that 
we do is important, diminish no committee--but this is one that 
you have got to get right. This is the one that has the actual 
ability, if we get it wrong, to have a direct impact on 
everything else that we do, everything else that is important 
to us in this country, whether it is a social program or 
anything else. If we don't get it right in this committee, that 
will degrade everything else that we want to do and the 
prosperity of this country, because what we can do, and the 
projection of force that we talk about does make us more 
prosperous. It opens up markets and keeps markets open for us 
that we wouldn't have without a strong and vibrant military.
    But to get to that is about oversight. And the chairman has 
talked about acquisition reform and getting the Pentagon to be 
responsive and not being a rubber stamp for the Pentagon. And I 
think that is the biggest thing that I always felt. Sometimes 
it is just like, well, we got to do it because they asked. 
Well, no. I mean, we are the civilian oversight of the Pentagon 
to make sure that the dollars that the American public pony up 
every year are going and getting the best bang for our buck. 
And I think that is where the oversight portion of this 
committee is so important, more important than a lot of other 
committees, I personally think.
    So I just want to be on record that I think that this 
committee of all should really get the request that is being 
asked for. I don't see it as being just parochial to the Armed 
Services Committee. But I do think it is important to this 
whole country.
    With that I yield back, Madam Chair.
    The Chairman. I thank both these gentlemen who are on the 
House Armed Services Committee for their strong advocacy for 
this committee, and the chair recognizes Ms. Comstock.
    Mrs. Comstock. Thank you, Madam Chairman. I just wanted to 
echo the emphasis of my colleagues on how important this 
committee is. I do appreciate the nature of what you are 
working on and the importance, with all the challenges we have 
facing us. So thank you for your leadership on this. And I too 
would agree with Mr. Nugent's suggestion that this is going to 
be one of the most important things we do over the next several 
years. And I know in my district how important this is and how 
I hear from the defense community all the time. And so happy to 
work with you on these issues. Thank you.
    The Chairman. I thank both the gentlemen for coming. 
Obviously, you have some great support here, and no wonder. But 
it is a bit of a request that you are asking for and we are 
going to look at it very closely and certainly are well aware 
of what challenges the world is facing, our country is facing, 
and the kinds of responsibilities that your committee has. We 
want to make sure we can resource you to the optimal that we 
have available funds to.
    So we will get back to you. Thank you very much for coming. 
We appreciate it.
    The Committee now welcomes Chairman McCaul and Ranking 
Member Thompson of the Committee on Homeland Security. I would 
ask the official reporter to enter a page break into the 
hearing record as we begin a new section.
    The Chairman. Established in 2002, the Committee on 
Homeland Security has jurisdiction to provide congressional 
oversight for the U.S. Department of Homeland Security and to 
better protect the American people against a possible terrorist 
attack. Much of what they do, of course, is unknown, depending 
on circumstances around our Nation and around the globe 
certainly. I am very pleased to be able to serve on this 
committee as well, so I am familiar with the workings of the 
committee.
    I would just say to both the chairman and the ranking 
member that both the Republican and Democratic staff on the 
committee were very helpful to our staffs when we were trying 
to put all of our information together so that we were prepared 
to hear your presentation today. So we are very appreciative of 
that.
    With that, we are going to be voting, I guess, in about 10 
minutes, so we should have plenty of time to get through here.

 STATEMENT OF THE HON. MICHAEL T. McCAUL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. McCaul. Madam Chair, thank you for inviting me and the 
ranking member, thank you, Ranking Member Brady, for this 
opportunity to testify this afternoon on the work and goals of 
the Committee on Homeland Security. I am pleased to be sitting 
next to my ranking member, who is equally committed to the 
national security of this Nation and has been a good partner in 
that effort.
    This committee faces, I believe, continuous and growing 
resource constraints in light of the dynamic security threats, 
recent world events, and key national policy debates. We expect 
this threat environment to become more challenging over the 
next Congress. Our committee is at the forefront of overseeing 
the U.S. Government's response to an alarming rise in homegrown 
and foreign terrorist threats, meeting the challenge of 
securing America's borders, countering the acute increase in 
cyber attacks against the United States Government and private 
sector networks, especially in light of the Sony and Anthem 
attacks this last month.
    The confluence of these challenges has placed a noticeable 
strain on our committee's resources. We have been charged with 
responding to the surging threat of domestic radicalization and 
the threat from foreign fighter terrorists. I just came out of 
a hearing with the ranking member talking about that very 
issue. Both issues have become more pressing in the wake of the 
attacks in Paris, Sidney, Ottawa, and Nigeria, and the 
destruction of terrorist plots here in the United States. In 
fact, I believe there have been over 15 ISIS plots, many 
successful, many not. But this trend is not going to decrease, 
in my judgment, it will increase.
    The 113th Congress was productive. We held almost 100 
hearings, 8 field hearings, passed 31 bills, and 28 were 
considered and passed on the House floor. Most importantly, we 
had for the time cyber legislation, landmark cyber legislation 
that was passed.
    More important than the numbers is the impact the 
legislation and oversight will have on the Nation. Our chemical 
facilities will be better protected, travelers will not be 
overcharged by TSA, and the Nation's veterans will be treated 
with the dignity and respect that they deserve at our airports. 
Additionally, cyber threat information will be enhanced and 
improved, and the workforce will be strengthened to combat this 
threat.
    In the 113th it became clear to this committee and to the 
Department itself that DHS is not optimally organized and 
equipped to deal with the escalation in security challenges. 
DHS has never been reauthorized by Congress since it was 
established in 2002. To me, that is an amazing statement that I 
don't think many Members of Congress are aware of, that this 
Department has never been reauthorized by the United States 
Congress.
    DHS badly needs legislative fixes. It is one of the highest 
priorities of the committee to draft and enact the first-ever 
DHS reauthorization that will allow us to implement these much-
needed reforms at the Department.
    In the 114th, the committee will launch a concerted effort 
to reauthorize, as I stated. This undertaking is of major 
national security significance, and will include the following: 
a full review of the Homeland Security Act, briefings with all 
of DHS' main offices, development of new authorizing 
legislation and appropriate reforms for each of the DHS 
components, close coordination through the process with House 
committees sharing jurisdictional interest, which as the 
chairwoman knows is a challenge because of the jurisdictional 
problems that we face. It will involve close coordination with 
the Senate, and the markup of authorization through regular 
order.
    This will take a counsel to work full-time on the activity 
on both the majority and minority sides. And with additional 
funds, we will be able to hire these personnel.
    The committee has created a long-term investigations unit 
that has already launched a handful of investigations that will 
be completed and released in 2015. In fact, we announced at 
this morning's hearing the creation of a task force to 
investigate both foreign fighters traveling abroad and also the 
homegrown violent extremists. This growth of lawless terrorist 
safe havens is a threat to the homeland.
    We will also be investigating cybersecurity, biological 
attack preparedness and response, and also waste, fraud, and 
abuse within the Department.
    Finally, in an October 26 article in Politico, Leader 
McCarthy stated that the House committees should be doing far 
more field work. I agree with him. I just recently visited the 
9/11 Museum in New York, which I would recommend to all the 
committee members. And they have agreed to open up their 
facility for a field committee hearing. But as this committee 
knows, that will also take more resources.
    Field work is essential to gathering data to conduct 
rigorous oversight, have the right policy questions, and inform 
legislation.
    In order to fulfill the mission of this committee and 
accomplish these priorities, we are requesting a marginal 
increase of 1.7 next year over our 113th authorized level. If 
granted, we would primarily focus these on the key hires that I 
mentioned. And in addition to personnel compensation and field 
work, we are requesting minimal changes to funding for other 
categories.
    So I know our time is limited. I want to thank the 
committee for the opportunity to appear here before you today 
to talk about the great work of this committee. And with that, 
I yield back.
    The Chairman. Thank the chairman.
    [The statement of Mr. McCaul follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. The chair now recognizes the ranking member, 
Mr. Thompson.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Chairman Miller, Ranking 
Member Brady. I am in full agreement with my chairman's earlier 
statements. It is no question that the cuts of 2011, 2012, and 
2013 to the Committee on Homeland Security's budget was a 
problem. And part of what we have here today with this request 
for additional funding so we can in effect conduct the 
committee's business.
    Our biggest challenge is several, Madam Chair. Our enemy is 
not the enemy we started with. We have to have good staff, we 
have to conduct good work. We have to have the ability to 
travel, to do field hearings. All those things require 
resources.
    The chair and I have historically managed the money very 
well of the committee. We have even in our field hearings 
reduced the number of staff going on the hearings to try to 
make sure we stay within the budget. But a lot of those 
reductions have not allowed us to really do effective committee 
work. So what you have before you today is a request for a 
small increase. We could do more, but we recognize the times we 
are in.
    Cybersecurity, a major effort for this committee. We passed 
three bills as we were going out last session. We will leave 
this meeting and go meet with our Senate counterparts to talk 
about cybersecurity today. We need the resources to make sure 
that we can bring the talent on to address that threat here.
    The issue with the Secret Service and the fact that there 
are some lapses that have gone on in service, that we need to 
address that also.
    But more importantly, Madam Chair and Ranking Member, is we 
have to retain good talent and we have to attract good talent, 
and in order to do that in this environment you have to pay 
staff. And so part of what we are trying to do is to the best 
we can stay current with what the marketplace bears. And in 
order to do that, we have to have resources to do it.
    So the chair and I are in complete agreement with this 
budget request. And I look forward to any questions that might 
come.
    The Chairman. Thank you, gentlemen, both of you, sincerely, 
for coming here before us today.
    [The statement of Mr. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. I was taking some notes here as you were 
talking. It is true in regards to the staff, you had a ceiling 
of 75, I think, for the committee. You have had an average of 
68 positions filled. So the ability to do oversight, the 
ability for authorizing, as was mentioned, whether you are just 
authorizing the Department of Homeland Security, which has 
never been done, or Customs and Border Protection, or Border 
Patrol, or ICE, or any of these kinds of things that the 
committee is going to be looking at this year is of such 
marquee importance, I think.
    Just to let you know, first of all, our Committee during 
last week went through about half the committees where the 
chairmen and the ranking members were making their pitch. Today 
we just have two more after you. So then we are going to be 
really looking at how much funds we actually have, the amount 
of funding that we have available, and then trying to resource 
as we can to the very best of our ability.
    I point these numbers out because I think they are very 
instructive, because the House really has done everything that 
we can to be fiscally conservative, not only within our own 
Members and their MRAs, but particularly in the committees. The 
House committees since the 110th Congress have had a 15 percent 
decrease--15 percent decrease--that everybody has pretty much 
absorbed. The Senate committees, God love them, have actually 
in the same time period had a 4 percent increase while we have 
taken a 15 percent decrease. Yet we have some very similar 
responsibilities for oversight, et cetera, et cetera. As I say, 
the Executive Branch actually has had a 30 percent increase--30 
percent increase--since 2008. I just point that out. It is 
really a stark contrast.
    So I guess my question, and I think the chairman probably 
answered it in his testimony, but if we were able to give you 
the amount of increase that you are really looking for, 
specifically what might you utilize that for? I think you said 
probably principally staff and maybe a bit of field hearings as 
well.
    Mr. McCaul. Yes, Madam Chair. And I think the ranking 
member gave an excellent presentation.
    If I could just back up, you and I have been on this 
committee, for me 10 years, I have never seen a threat 
environment higher than I do today since 9/11. And with that 
comes the responsibility of the committee and the oversight 
responsibilities the committee has.
    Specifically to address your question, we believe the 
additional counsel to get a reauthorization bill through the 
Congress would be vitally important. As you know, we share 
jurisdiction more than any other committee, I think in the case 
of this committee, with five other committees of jurisdiction. 
It is going to be a parliamentary challenge to get this bill 
through. The Speaker has told me this is the highest priority 
for the committee to get DHS reauthorized for the first time, 
and that will take additional counsel.
    In addition, we have launched these investigations that I 
believe are very important to the American people to close 
security gaps of the threats these foreign fighters pose who 
have 50,000 ISIS, 20,000 foreign fighters, 5,000 Western 
passports, many of whom can go through Europe without a visa 
into the United States. Hundreds of Americans have traveled 
into Iraq and Syria. And we have a rough number that was talked 
about today at the hearing, but you don't know what you don't 
know.
    And these investigations, I think, would be very important 
to not only fill in these security gaps, but protecting the 
American people, along with the homegrown violent extremists 
who can radicalize over the Internet. And I don't believe this 
administration is paying enough attention to that piece. And 
this committee, I believe, is making that front and center as 
well. So an additional investigator would help, and I think the 
field hearings as well.
    But we are seeing really, to sort of echo my colleague's 
points, I mean, border security, the threat from foreign 
fighters and homegrown radicalization, and the cyber threat I 
can't underestimate. This committee is going to be front and 
center in the cyber debate. Homeland Security, I believe, is 
going to be the lead agency as a civilian portal to the private 
sector, and we have to make sure that this committee can 
function properly to get this piece done right. It is very, 
very important to the Nation.
    And I have to be honest, to the ranking member's point, we 
just lost our staff director on the cybersecurity committee. 
And we have lost staff not to other committees, because I think 
it is a very interesting time for the committee, but we have 
lost them to the private sector, particularly on cybersecurity, 
where somebody that gets good experience in our committee can 
double or quadruple their salary.
    So I think that is becoming a growing field and threat to 
the United States that this committee needs to be fully 
equipped to deal with.
    The Chairman. Mr. Thompson, do you have anything to add?
    Mr. Thompson. Well, the only thing I can add, Madam Chair, 
is the chairman is correct, we have to have the complement of 
staff necessary to address all the threats that we come in 
contact with. Those threats are growing. And in order to be 
prepared, we need to have staff and equipment and the ability 
to do the necessary work to keep America safe. And we can't do 
homeland security on the cheap. The public is clearly 
supportive of the mission of this Department, and what we have 
to do is further refine the mission, make it cost-effective. 
But security is an investment that up to this point the public 
is willing to make.
    The Chairman. Very good.
    My ranking member, Mr. Brady.
    Mr. Brady. Yes. Thank you, Madam Chair.
    Just thank you for the job you do in keeping our homeland 
safe. And I would assure you that the chair of this committee 
will do everything that she can--and I would like to join her 
in doing that--to try to make sure that you have all you need, 
the wherewithal to keep keeping us safe. So thank you, and 
thank you for the job that you do.
    Mr. McCaul. Thank you.
    Mr. Thompson. Thank you.
    The Chairman. The chair recognizes the gentleman from 
Illinois.
    The chair recognizes the gentleman from Florida.
    The gentlelady from Virginia.
    Very well.
    All right, gentlemen. We sure appreciate your attendance 
here today and your attention from your committee staff and 
yourselves to the detail of what your requests are. Again, we 
are going to take a look at everything, obviously, in an 
aggregate and see where we can go here. But I am well aware of 
what the committee does and the challenges that we are facing 
from a staffing level and oversight, et cetera. So I appreciate 
it, and we will get back to you. Thank you very much.
    Mr. McCaul. Thank you.
    Mr. Thompson. Thank you.
    The Chairman. I will now recess the hearing. The Committee 
will reconvene subject to the call of the chair, which will be 
immediately following our votes.
    [Recess.]
    The Chairman. The Committee now welcomes Chairman 
Hensarling and Ranking Member Waters of the Committee on 
Financial Services. I would ask the official reporter to please 
enter a page break in the hearing record to begin a new 
section.
    The Chairman. The House Committee on Financial Services has 
jurisdiction over issues pertaining to the economy, the banking 
system, housing, insurance, and securities and exchanges. 
Additionally, the committee also has jurisdiction over monetary 
policy, international finance, international monetary 
organizations, and efforts to combat terrorist financing.
    The Committee certainly welcomes both the chairman and the 
ranking member. Before I recognize you, Mr. Chairman, let me 
just say to both of you that your committee staffs, your 
respective committee staffs were very, very helpful to our 
staffs when we were trying to get all the information gathered 
together, so we would be prepared for your presentation today. 
So we are appreciative of that.
    With that, the chair recognizes Chairman Hensarling.

   STATEMENT OF THE HON. JEB HENSARLING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hensarling. Thank you, Madam Chair. Chairman Miller, 
Ranking Member Brady, and members of the committee, Ranking 
Member Waters and I are pleased to appear before you on behalf 
of the Financial Services Committee.
    Certainly I believe that the Congress must always lead by 
example in matters of budgeting, especially in times of 
historically high debt. I know the members of this committee 
have to make many important and tough decisions about the 
allocation of resources and budgeting limits, just as we do on 
our particular committee. To help you in this effort, I am here 
to explain the committee's priorities and discuss how we plan 
to use the valuable resources, hopefully to better serve 
taxpayers, citizens, and the members of our committee.
    Chairman Miller, as you just delineated, our Financial 
Services Committee does have a broad jurisdiction, including 
the entire U.S. financial system. Indeed, this does include our 
banking system, our capital markets, our housing finance 
system, insurance, monetary policy, and international finance. 
From Main Street to Wall Street, there are very few financial 
transactions that are not impacted by the jurisdiction of this 
committee.
    Among the agencies that we have the responsibility to 
oversee include the Federal Reserve, the Securities and 
Exchange Commission, Department of Housing and Urban 
Development, the Bureau of Consumer Financial Protection, and 
many other components of the Department of Treasury. We are one 
of the largest standing committees of the House, with 34 
Republicans, 26 Democrats. We have a few dozen committed 
staffers whose salaries comprise the vast majority of our 
committee's budget, as I think you have already observed.
    We work to make sure that the agencies under our 
jurisdiction treat the taxpayers' dollars with respect, because 
after all, it is not their money and it is not our money, it is 
the taxpayers' money. As I testified before you in the last 
Congress, just like every American family, we have to 
prioritize our spending, just like they do. So in the last 
Congress we readjusted our spending to accommodate the 
sequestration cuts by combining two longstanding subcommittees, 
into one to streamline the workload. We did, however, delay a 
number of equipment purchases and IT investments. We have put 
off a number of important long-term staff hires.
    In addition to those actions, you are well acquainted, 
Chairman Miller, because you and this whole committee were 
helpful, but we had to reprioritize our spending in mid-
Congress to accommodate essential hearing room renovations 
after numerous and embarrassing audiovisual failures of 
equipment that had grown antiquated.
    While we are very pleased to have the necessary renovation, 
mainly an AV system that actually works--I thank, again, the 
chair and all committee members for the assistance and 
excellent service that you and your staff have provided--you 
need to know, though, that the uncertainty surrounding the 
expenditures associated with those renovations did factor into 
our budgeting and spending decisions. So it made it very 
difficult for us to budget for staff hires, which is obviously 
a top priority for us in this Congress.
    I need not tell you the 2008 financial crisis was the worst 
since the Great Depression. It has exponentially increased the 
workload of this committee. Most believe that the underlying 
cause of the crisis falls within our committee's jurisdiction, 
as does the ultimate solution or prevention. And whether it is 
examining the role of Washington's housing policies, the 
government-sponsored enterprises, the Federal Reserve's 
monetary policies, we continue on our committee to be committed 
to addressing the root causes of this crisis and do everything 
we can to avoid yet another one.
    We believe that this Congress, Madam Chair and members, 
could be the busiest since the passage of Dodd-Frank in 2010. 
Whether you like it, whether you dislike it, it is clearly the 
most dramatic change to our Nation's financial regulatory 
system since the New Deal. And the fact that nearly 5 years 
after its passage regulators are still writing many of the 
mandated rules and regulations is at least testimony to its 
complexity. Dodd-Frank's 2,300 pages include more than 400 
separate rulemakings. Again, every sector of our economy, every 
town, every pocketbook and wallet are going to be impacted by 
this historic legislation. So from manufacturers of the latest 
smart phones, to families trying to buy or sell a home, to 
single moms purchasing groceries with their credit cards, 
virtually no one in America is left untouched by this act.
    So while the other major law that has been passed in recent 
years, the Affordable Care Act, spans three committees of 
jurisdiction, our committee has sole responsibility for 
overseeing almost the entirety of Dodd-Frank's implementation. 
Therefore, to make sure that the law is properly implemented, 
we will and must continue to focus much of our energy and 
resources monitoring the implementation, making legislative 
changes where necessary, and exercising very robust and 
effective oversight under this dramatic piece of legislation.
    In addition, I need not tell you that although there have 
been improvements in our economy, millions continue to suffer. 
Middle-income paychecks are smaller. Their bank accounts are 
smaller than they were 6 years ago. So our committee will 
continue to work on putting forward legislation to get America 
back to work, and we will continue to work to send dozens of 
bipartisan job-creation bills to the floor. This also will take 
a lot of our particular focus. Regulatory relief helps small 
businesses and entrepreneurs, since we know that 
entrepreneurial activity, regrettably, is at a generational 
low.
    Additionally, this year marks the 50th anniversary of the 
founding of the Department of Housing and Urban Development, 
and we will take a thorough review of all of their programs. 
Just earlier today we had Secretary Castro appear before our 
committee. We will examine what the Department has done. That 
will also take a lot of time and attention.
    In closing, our committee is hard at work on the priorities 
of the American people. With further resources, we think we 
would be able to provide the manpower to propose even more 
policies that will help secure upward mobility and economic 
opportunity and financial independence to our constituents and 
hard-working taxpayers. Thus, we have submitted the request 
before you, and we thank you for the opportunity to testify. 
And at the appropriate moment, I would be happy to answer 
questions.
    The Chairman. I thank the chairman very much.
    [The statement of Mr. Hensarling follows:]

    [GRAPHIC] [TIFF OMITTED] 

The Chairman. At this time the chair recognizes the ranking 
member, Ms. Waters.

   STATEMENT OF THE HON. MAXINE WATERS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much. Good afternoon, Chairman 
Miller and Ranking Member Brady. I am pleased to have the 
opportunity to testify before you today, along with Chairman 
Hensarling, to discuss the budgetary needs of the Financial 
Services Committee.
    As ranking member of the Financial Services Committee, I am 
very concerned about any proposed reduction in the committee's 
2015 budget. The minority receives one-third of the staff slots 
and total budget, with total control over both categories. At 
the beginning of the 113th Congress, the committee sustained a 
12 percent cut to its budget. We were able to weather the 
impact of that cut by limiting new hires and allowing for the 
natural attrition of staff. Unlike other committees, we avoided 
furloughing any staff. The lack of furloughs was positive for 
morale and helped to foster a collaborative working environment 
for staff.
    Today, I am pleased to say that despite the budget cut the 
committee has one of the finest, sharpest staffs on the Hill. 
They are experts in financial regulation, housing and community 
development programs, monetary policy, and a host of other 
issues. Despite our very responsible management of the 
committee budget, I am very concerned that any reduction in 
funding will lead to the very kinds of furloughs and pay cuts 
that I have striven to avoid, thereby putting at risk the top 
notch team of expert staff who implement the committee's 
legislative, policy, and oversight agenda. Full funding is also 
required to support that staff. Last Congress we were able to 
replace our outdated committee servers. We also purchased new 
laptops and other equipment and authorized cell phone use for 
staff. These purchases were made as a result of the relocation 
of the committee staff to the O'Neill Building. While the move 
is now complete, we do anticipate making additional purchases, 
as the majority has promised to provide office space in the 
basement of the Rayburn Building for Democratic committee 
staff, and that space would need to be outfitted with the 
appropriate technology so that staff can work effectively 
there.
    Moreover, we anticipate that the House will soon make a 
decision regarding support for the BlackBerry. As BlackBerrys 
are used by our staff, any change in House support of 
BlackBerrys would require the purchase and maintenance of new 
smart phones. We would require funding to cover these costs in 
that eventuality.
    In lieu of a budget cut, I strongly recommend that the 
committee consider a budget increase for the Financial Services 
Committee. The chairman has requested a very modest 2 percent 
increase in the committee's budget for this year, and I support 
this request. My chairman has indicated that he will conduct 
aggressive oversight on many laws and agencies under the 
committee's jurisdiction, including the Dodd-Frank Wall Street 
Reform and Consumer Protection Act, the Jumpstart Our Business 
Startups, that is the JOBS Act, and the Biggert-Waters Flood 
Insurance Reform Act.
    Dodd-Frank implementation will be of particular interest to 
the committee, as it involves many critical rulemaking 
initiatives across nearly a dozen agencies. While Dodd-Frank 
implementation will take up most of the committee's time, there 
are non-Dodd-Frank issues that demand the committee's time as 
well, such as the housing programs of the Department of Housing 
and Urban Development and the monetary policy of the Federal 
Reserve.
    In addition, at the beginning of this Congress our 
committee rules were revised in order to grant our chairman 
unilateral subpoena authority. As the majority began several 
investigations last year, I anticipate the continuation of 
these investigations and the initiation of new investigations 
by the majority. Moreover, the House also voted at the 
beginning of the year to give our committee the authority to 
conduct depositions. Given that it was the will of the House to 
give the committee this new authority, it should be the will of 
the House to provide additional funding to help the committee 
properly use this authority.
    Again, the amount the chairman has requested is a very 
modest increase, but would result in a very significant 
positive impact on our committee's operations, especially given 
the new powers that the committee has been given.
    The issues faced by the Financial Services Committee are 
highly complicated, technical, and can be at times 
controversial. The requested increase in funding for the 
committee will improve our ability to conduct the appropriate 
oversight of these issues and to protect the American taxpayer.
    I thank you very much, and I yield back.
    The Chairman. Thank you so much.
    We appreciate both of your testimony and all of the written 
materials that you have submitted to the Committee as well. 
Actually our Committee, last week got through about half the 
committees. After you two, we only have one more committee to 
go through, and we will be through everyone. It is interesting 
how some of the committees have asked for level funding, some 
have asked for a small increase, and some have asked for a bit 
more. We are taking every one of these requests into, I say it 
in all sincerity, very serious consideration.
    As you have mentioned, I was mentioning this to one of the 
other committee chairs, because I think it is just an 
interesting number, the House has tried to be so fiscally 
conservative in what we are doing not only in our own personal 
MRAs, but within the committee structures as well. Since the 
110th Congress, the House committees have had a 15 percent 
reduction in their budgets.
    Now, the Senate, God love them, has actually had a 4 
percent increase since the 110th Congress and we have taken a 
15 percent decrease. The Executive Branch has actually 
increased 30 percent since 2008. Yet a big part of all of our 
responsibilities with all of our respective committees is 
oversight of the various agencies, all these different things. 
So I do think in many ways we have really hobbled ourselves in 
our ability to conduct the oversight that is required of us.
    So I would say this, I guess I would ask you, and I think 
both of you really have articulated what you would use the 
increase for, but specifically, if we were able to grant you 
your request for what you are asking here, the various nominal 
increase, actually a little less than 2 percent, what might you 
use that for?
    I am not saying that we are going to be able to do that. 
When we complete our matters today, we will then go into our 
own discussions about the amount of money that we have 
available and what we may be able to do to resource the various 
committees optimally. We would want to do that, obviously, with 
Financial Services as well, with all the unique challenges that 
you face.
    Would it be principally staff? I noticed here that you have 
got a staff ceiling of 86 and your average positions filled 63. 
So you really are, I am sure, struggling with that.
    Mr. Hensarling. Well, thank you, Madam Chair. If for 
nothing else, I had to come here to learn that God does love 
the Senate. I was curious at times. If you posit it, Madam 
Chair, I will take your word for it.
    To be serious, it would almost be exclusively in staff. 
When I became chairman, we have substantially less staff with 
the sequestration. Again, it is not just impacting our 
committee. I understand that. But the workload on our committee 
has increased precipitously due to the dramatic and historic 
nature of the Dodd-Frank Act. And, again, most of the 
jurisdiction having to do with assuring that the next financial 
crisis does not occur, that is part of our committee's 
jurisdiction.
    So at a bare minimum this would allow the majority side 
roughly a half a dozen new staffers. And when I say new, net. 
We have actually had a couple lured over to the other side of 
the Capitol, I do not understand why, but they were lured to 
the other side of the Capitol. But particularly in the area of 
financial institutions, we have a need for a chief counsel in 
that area. Again, I am not here to debate the relative merits 
or demerits of the law, but there is a significant compliance 
challenge, particularly for community financial institutions. 
So we have staffing needs there.
    The housing finance system, we may not quite agree on the 
solution, but I think there is fairly bipartisan agreement that 
this system is broken, it must be repaired. And so we hope that 
we will have a major initiative in this Congress. So we also 
have needs in the areas of government-sponsored enterprises.
    Relatively speaking, we have beefed up our oversight staff, 
but we need to have better coordination between our policy 
leads and our oversight staff.
    So the short answer, Madam Chair, to your question is, it 
is almost exclusively in staff, because we have far fewer staff 
and we have a far greater workload than what we had just a few 
years ago.
    The Chairman. Thank you.
    Ms. Waters, do you have any----
    Ms. Waters. Well, I mentioned in my testimony that we are 
anticipating some new office space that has to be outfitted 
with the appropriate technology. A lot of renovation. It is 
going on, I guess, in the Rayburn Building, I guess in other 
places also.
    And moving our staff around, we have to make sure that, 
first of all, we get some space. And then we have got to make 
sure it is equipped properly in order to do the job that they 
need to do. So the technology is extremely important for us.
    The other thing, in addition to some additional perhaps 
staff support, because of the complexity of the oversight of 
Dodd-Frank and all that it touches on, I am very interested in 
some limited travel to financial centers. Working on the 
Financial Services Committee, it is absolutely important that 
our staffers are able to witness firsthand the operations of 
some of these financial centers. And so I would like very much 
to have included in our budget some limited travel so that we 
would be able to do that.
    So between technology, some increased staff and travel, 
that is basically what we would use the money for.
    The Chairman. Okay. I appreciate that.
    The ranking member, Mr. Brady? Nothing?
    We will start with Mr. Nugent from Florida.
    Mr. Nugent. No.
    The Chairman. Nothing?
    Mr. Davis.
    Mrs. Comstock.
    No? Okay. Very good.
    Well, again, we are appreciative of your time and your 
assistance on this, and we will give it every consideration, 
and we will get back to you. Thank you.
    Mr. Hensarling. Thank you, Madam Chair.
    Ms. Waters. Thank you.
    The Chairman. The Committee now welcomes Chairman Dent and 
Ranking Member Saanchez of the Committee on Ethics. I would ask 
the official reporter to enter a page break into the hearing 
record to begin a new section.
    The Chairman. The House Committee on Ethics is the only 
standing committee of the House whose membership is evenly 
divided between each political party. Under House rules, the 
committee has the jurisdiction to administer travel, gift, 
financial disclosure, outside income, and other regulations, 
advise Members and staff, issue advisory opinions, and 
investigate potential ethics violations.
    This committee is also authorized to enforce standards of 
conduct for Members, officers, and employees, to investigate 
alleged violations of any law, rule, or regulation, and to make 
recommendations to the House for further action. The Ethics 
Committee, as well, has sole jurisdiction over the 
interpretation of the Code of Official Conduct.
    So we certainly welcome you both to our committee.
    Before I recognize Chairman Dent, I would just tell you 
both that your entire committee staff, I should say, equally 
divided really, were very responsive to our staff here when we 
were trying to get all of our information together for your 
request. So we were really prepared for your presentation 
today, and are appreciative of all your committee staff.
    With that, the chair would recognize Chairman Dent.

  STATEMENT OF THE HON. CHARLES W. DENT, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Dent. Thanks, Madam Chairman. Thank you for the kind 
words about the staff. They do a great job for us, and we are 
really lucky to have them. They are nonpartisan too.
    Again, thank you, Chairman Miller, Ranking Member Brady, 
and other members of the committee who are here today. And I 
also want to thank you for inviting Ranking Member Saanchez and 
me to discuss the committee's efforts during the past Congress 
and what we foresee as the challenges of the committee and the 
challenges that we are going to face in the 114th Congress.
    While we cannot provide details for the committee's work, 
most of which is confidential by House rule, we will be as 
frank as we possibly can. And while I am a new chairman, this 
is my seventh year serving on the Ethics Committee. During my 
tenure on this committee I have come to deeply appreciate the 
seriousness that my colleagues, both Republican and Democrat, 
bring to our responsibilities.
    The work of the committee is important and vital to the 
House and each of its Members and employees and to the American 
public. The committee's work and financial needs are divided 
into three main functions. These are advice and education, 
financial disclosure review, and investigation and 
adjudication.
    Advice and education and financial disclosure review are 
primarily customer service efforts, and are necessary and 
important to ensure that Members and staff do not run afoul of 
the ethics rules, laws, and regulations that guide our conduct. 
Our staff works hard every day to answer questions and provide 
guidance on a wide range of issues that could land a Member or 
staffer in trouble if not for the guidance they request and 
receive.
    In addition to the guidance and advice provided on a daily 
basis, our advice and education staff provide training to staff 
and Members either through regularly scheduled training 
sessions or upon request. Our financial disclosure staff review 
all the annual disclosure statements, as well as the more 
recently required periodic transaction reports, the PTRs, that 
Members and certain staff are required to file monthly. Our 
investigation and adjudication work is qualitatively different.
    In addition to accuracy and promptness, we strive for 
integrity, discretion, fairness in process, and a complete 
understanding of the facts. I worked with the current staff for 
several years, and am very proud of the work they performed for 
the House. They understand the seriousness of the jobs that 
they are asked to do and do so in a strictly nonpartisan way. 
Each Member or employee who contacts the committee for guidance 
or advice can feel secure knowing they are getting unbiased and 
professional advice. Our investigative staff provides the same 
professional and nonpartisan efforts to ensure each allegation 
is thoroughly and fairly investigated and a just conclusion and 
recommendation is reached.
    I began my tenure as chairman following the same 
requirements of my predecessor, that timeliness continues to be 
a top priority in all of our committee's work. When a Member or 
an employee comes to the committee for advice or approval, or 
when a Member or employee's conduct has come under review, 
those Members or staff deserve the committee's impartial 
consideration and deserve it as expeditiously and 
confidentially as possible.
    It is clear that our workload has been increasing in all 
three areas of the committee's work, as the ranking member will 
describe in a few moments in her comments. In investigative 
matters, the committee has continued to be very active. In the 
113th Congress the committee began or continued 89 
investigative matters.
    While the creation of the Office of Congressional Ethics 
several years ago has added to the committee's workload, it is 
important to note that the committee is very active in 
undertaking investigations on its own initiative. In the last 
Congress, OCE, the Office of Congressional Ethics, referred 22 
matters to the committee, 16 with a recommendation that the 
committee review the matter further and six with a 
recommendation that the committee dismiss the matter. So only 
about a quarter of the committee's investigative matters were 
related to an OCE referral. That is consistent with the 112th 
Congress, when the committee considered 96 investigative 
matters and received a total of 23 referrals from the OCE, of 
which 13 recommended further review and 10 recommended 
dismissal.
    Some investigations can take years to be completed. This is 
in part because of their complexity, but also the number of 
documents the committee must review and analyze. In the last 
Congress, the committee's investigative staff reviewed more 
than 430,000 pages of documents. One matter alone required the 
review of more than 220,000 pages of documents.
    With the proper number of attorneys and the right training 
and experience, we hope to continue to improve the 
investigative process and decrease the amount of time it takes 
to complete each investigation. With your committee's help our 
committee has begun a project to greatly improve its 
correspondence management system, which is the backbone of the 
advice and guidance we provide to Members and staff. The new 
system will replace a system that is over 20 years old.
    Our budget for the 114th Congress will provide the 
resources necessary to continue the progress we have made over 
the last several years in providing timely advice and 
completing investigations in a much shorter timeframe.
    Thank you for your time. And I look forward to your 
questions.
    The Chairman. Thank the gentleman very much.
    [The statement of Mr. Dent follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. The chair now recognizes Ms. Saanchez.

 STATEMENT OF THE HON. LINDA T. SAANCHEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Saanchez. Good afternoon, Chairman Miller, Ranking 
Member Brady, and members of the committee. Thank you for the 
opportunity for us to talk about the work that the Ethics 
Committee does and our budget needs.
    At the outset, I just want to begin by saying how much I am 
looking forward to working with Chairman Dent. This is going to 
be our third Congress serving on the Ethics Committee together. 
Also, most of our colleagues on the Ethics Committee are 
returning members this year. And in the past I think all of us 
have worked together well. And it is worth noting that in the 
last Congress all of our votes were unanimous on the matters 
that we had to vote on before us.
    Our committee also enjoys a good relationship with your 
committee. We work with House Administration probably more 
closely than any other committee. And we appreciate the 
opportunity to work with you all on things like new Member 
orientation and other issues of concern that affect the House.
    We understand that you have an unenviable task. Dividing up 
a pool of limited resources among all of the committees, each 
of which has important work to do, I am sure cannot be easy. 
Others have compared it to trying to fairly divide up the 
pieces of a pie.
    In our case, I think there is a slightly better metaphor, 
and if you will indulge me, the resources that are allocated to 
the committee are less like dessert and more like vitamins. 
They are necessary supplements to make not only our committee, 
but the whole House stronger. And this is true because of the 
unique role that the committee plays in interpreting and 
enforcing the House's ethics rules, as the chairman discussed.
    We recognize that in recent years all committees have had 
to make do with fewer resources than they might like. But in 
the case of the Ethics Committee, its responsibilities have 
actually increased quite a bit. The House has repeatedly chosen 
to give the Ethics Committee additional responsibilities.
    For example, in the 110th Congress the committee was 
charged with reviewing and approving all requests to accept 
privately sponsored travel, providing ethics training to 
Members, and enforcing a mandatory requirement for the roughly 
10,000 employees of the House, and reviewing recommendations of 
a newly created entity, the Office of Congressional Ethics. 
Similarly, in the 112th Congress, the committee was charged 
with administering the new financial disclosure requirements of 
the STOCK Act. In this Congress, the House made it mandatory 
for new Members of the House to complete ethics training soon 
after they enter the House and begin their term.
    In recognition of those growing responsibilities, several 
years ago the Ethics Committee received an increase of its 
staff cap to 29 slots. However, because of the budget climate 
since that time, the committee has never been fully staffed at 
its current cap.
    Despite the fact that we have not been able to reach our 
full staff cap, the committee staff has done an extraordinary 
amount of work to serve the House. In December, the committee 
issued a 250-page summary of its activities in the 113th 
Congress. That report is available to the House and to the 
public on our Web site, ethics.house.gov. A few figures from 
that report illustrate the scope of the committee's work for 
the House.
    So in the last Congress the committee issued more than 320 
formal advisory opinions regarding ethics rules; fielded nearly 
40,000 informal telephone calls, emails, and in-person requests 
for guidance on ethics issues; released 18 advisory memorandum, 
which are officially known as pink sheets, on various ethics 
topics relevant to the House; provided training to 
approximately 10,000 House Members, officers, and employees 
each year; received more than 5,000 financial disclosure 
statements and amendments filed by House Members, officers, 
senior staff, and House candidates; and received nearly 3,000 
periodic transaction reports filed by House Members, officers, 
and senior staff. And those periodic transaction reports 
detailed thousands of financial transactions.
    The committee thus far has been able to meet its 
responsibilities to the House and produce this extraordinary 
amount of work because of our greatest resource at the 
committee, our very talented, nonpartisan staff. Again, in the 
last Congress the committee staff handled our increased 
workload with excellence and with professionalism, even though 
we were short of the maximum staff slot allowance. And that is 
possible because we have a very good, very experienced team on 
the Ethics Committee.
    The Ethics Committee enjoys one of the smallest budgets of 
any House committee, and about 95 percent of our budget is 
spent on staff salaries. And staff recruitment and retention in 
particular remains a challenge in the current budget climate, 
particularly for a committee like Ethics, which needs attorneys 
with very specialized knowledge and experience.
    And I am closing now, so with your permission if I could 
just finish. All of the staff on the Ethics Committee are 
important, and they are all necessary members of our team. 
However, the chairman and I would like to take a moment to 
acknowledge the contributions of one staff member in 
particular.
    As has been the case in many previous years, the budget 
submission and supporting materials we have provided for you 
today at this hearing relied heavily on the contributions of 
our administrative staff director, Joanne White. In a few weeks 
Joanne is going to mark her 24th year with the Ethics 
Committee, and this summer will be her 37th anniversary with 
the House of Representatives. She is the epitome of a 
commitment to public service, and she sets the standard for the 
rest of the staff. We are grateful to all of their service to 
the committee and to the House.
    And, again, thank you for our opportunity to be heard 
today, and we look forward to your questions.
    The Chairman. Thank you. We certainly appreciate your 
testimony.
    [The statement of Ms. Saanchez follows:]

    [GRAPHIC] [TIFF OMITTED] 

    The Chairman. Ms. White, thank you very much for your 
service to the Ethics Committee and to the entire House of 
Representatives. You have your boss's back there, right? 
Always. I will tell you this, whatever business you are 
involved in, at the end of the day it is always about the 
people. Always about the people. So it is great to have your 
bosses recognize you in that way.
    Mr. Chairman, and the ranking member as well, both of you 
were commenting about your staff ceiling, 29, and you have 
averaged about 25 positions. So you have never been there. I 
just point this out, I was pointing it out to some of the other 
chairmen as well, because I think it is an interesting 
statistic really. In your case of course you are essentially 
looking for level funding here, and we are very appreciative of 
that.
    On the other hand, since the 110th Congress the House 
committees have actually taken a 15 percent, generally, 15 
percent reduction in our committee funding. Of course we have 
taken similar amounts in our own MRAs, but in regards to the 
committee funding, the Senate, God love them, has actually had 
a 4 percent increase during that same time. We have taken a 15 
percent decrease.
    So we really, I think, hobbled ourselves and our ability 
with a lot of the committees that have oversight 
responsibilities, or various kinds of challenges. Your mission 
that you do for the House is so important. Actually, I was also 
going to mention the Executive Branch has had a 30 percent 
increase since 2008.
    So we really have, I think, in the House tried to be as 
fiscally conservative as we can. So our committee has had, last 
week and now this week, the Ethics Committee actually is our 
last committee to take testimony from, we have heard now from 
every committee in the House, and both the chair and the 
ranking member. Full transparency, about half the committees 
are asking for level funding and some are asking for a slight 
increase. Some are asking for a little bit more, depending on 
what they think their needs are.
    If we were able to not only maintain level funding for the 
Committee on Ethics, but if we were able to give you a slight 
increase--and I am not saying that we could do that, but when 
we are done here we are going to start really going through all 
these numbers and seeing what we can do here to resource 
optimally for each committee--but if we were able to get you a 
slight increase, would it just be for staff principally or do 
you have some technology needs? Maybe you sort of went through 
that in your opening statement. But really if you had a slight 
increase, what would it be?
    Mr. Dent. Financial analysts to help us with these PTRs, 
these periodic transaction reports, these monthly reports. Our 
volume has increased dramatically for financial disclosure 
because of the STOCK Act. That probably more than anything 
would be our greatest need. Technology, I think we are doing a 
little bit better. We are a little bit better there. But it is 
all about staff right now.
    The volume, it is not just on financial disclosure. Also on 
the trips, the number of privately funded trips, that volume 
has also increased. So that is where our time and effort would 
be needed. And for $150,000 I think we could do a lot to help 
improve the speed with which we deal with those issues.
    The Chairman. Ms. Saanchez, do you have anything to offer 
on that?
    Ms. Saanchez. I would agree. I think the explosion in the 
number of transactions that need to be reviewed by the 
financial disclosure staff has created a real crunch on our 
staff. And if we were able to add an additional position to 
help with that volume, I think that that would also lessen the 
burden on other folks that get pulled off of projects to come 
pitch in and help with that.
    It is very staff-intensive, the work that the Ethics 
Committee does. And if we were able to, again, have additional 
staff to help with that volume, it would mean quicker response 
times for Members and their staffs when they have inquiries or 
questions of the Ethics Committee.
    The Chairman. I appreciate that.
    My ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair.
    I would like to also congratulate Ms. White on all her 
years of service. God bless you. How you put up with us for 37 
years is amazing. One thing I know, you are going to heaven. 
You are skipping purgatory, going right to heaven.
    But, no, Madam Chair, I would not dare have any questions 
to the esteemed chairman and ranking member of our esteemed 
Ethics Committee.
    The Chairman. Mr. Nugent.
    Mr. Nugent. No.
    The Chairman. Mr. Davis.
    Mr. Davis. I am going to follow my colleague from 
Pennsylvania with absolutely no questions.
    The Chairman. Okay.
    Well, again, we appreciate it very much. We are going to 
really start putting a fine-tuned pencil here and seeing what 
we can do. I appreciate your response in regard to if we were 
able to plus you up here a little bit of what you actually 
would be looking for. That is true with the STOCK Act. I mean, 
I am sure that was not something you were doing until the last 
couple of years here. All of a sudden, boom. So they give you 
more and not any more resources to deal with it.
    Are there any other questions that we didn't ask you that 
you want to bring anything else out?
    Mr. Dent. We thank you.
    The Chairman. Okay. Very good.
    Ms. Saanchez. We just want to note for the record they 
asked me, if they ask you what you would do with the additional 
funding, don't say a batting cage in the Members' gym.
    The Chairman. Okay. We may put that in the record, we may 
not, right?
    Thank you very much. We sure appreciate both of you, your 
attendance here today, and we will get back to you.
    That concludes all of the testimony from all of the 
committees for the Committee on House Administration. As I have 
told every one of the committee chairs and ranking members, we 
will be looking at the resources we have available and we will 
be coming forward with an authorizing resolution.
    Without objection, this hearing is now adjourned.
    [Whereupon, at 4:16 p.m., the committee was adjourned.]


</pre></body></html>
